<html>
<title> - TRANSPORTATION CHALLENGES OF METROPOLITAN AREAS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
            TRANSPORTATION CHALLENGES OF METROPOLITAN AREAS

=======================================================================

                               (110-110)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 9, 2008

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




                   U.S. GOVERNMENT PRINTING OFFICE
41-822 PDF                  WASHINGTON : 2007
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
?

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ARCURI, New York          CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               ROBERT E. LATTA, Ohio
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey

                                  (ii)

?

                  SUBCOMMITTEE ON HIGHWAYS AND TRANSIT

                   PETER A. DeFAZIO, Oregon, Chairman

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
ELLEN O. TAUSCHER, California        THOMAS E. PETRI, Wisconsin
TIM HOLDEN, Pennsylvania             HOWARD COBLE, North Carolina
MICHAEL E. CAPUANO, Massachusetts    GARY G. MILLER, California
TIMOTHY H. BISHOP, New York          ROBIN HAYES, North Carolina
MICHAEL H. MICHAUD, Maine            HENRY E. BROWN, Jr., South 
BRIAN HIGGINS, New York              Carolina
GRACE F. NAPOLITANO, California      TIMOTHY V. JOHNSON, Illinois
MAZIE K. HIRONO, Hawaii              TODD RUSSELL PLATTS, Pennsylvania
JASON ALTMIRE, Pennsylvania          JOHN BOOZMAN, Arkansas
TIMOTHY J. WALZ, Minnesota           SHELLEY MOORE CAPITO, West 
HEATH SHULER, North Carolina         Virginia
MICHAEL A. ARCURI, New York          JIM GERLACH, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  MARIO DIAZ-BALART, Florida
JERRY McNERNEY, California           CHARLES W. DENT, Pennsylvania
BOB FILNER, California               TED POE, Texas
ELIJAH E. CUMMINGS, Maryland         DAVID G. REICHERT, Washington
BRIAN BAIRD, Washington              CHARLES W. BOUSTANY, Jr., 
DANIEL LIPINSKI, Illinois            Louisiana
DORIS O. MATSUI, California          JEAN SCHMIDT, Ohio
STEVE COHEN, Tennessee               CANDICE S. MILLER, Michigan
ZACHARY T. SPACE, Ohio               THELMA D. DRAKE, Virginia
BRUCE L. BRALEY, Iowa, Vice Chair    MARY FALLIN, Oklahoma
HARRY E. MITCHELL, Arizona           VERN BUCHANAN, Florida
LAURA A. RICHARDSON, California      ROBERT E. LATTA, Ohio
ALBIO SIRES, New Jersey              JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (Ex Officio)
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Kirby, Ron, Transportation Director, Metropolitan Washington 
  Council of Governments, Washington, D.C........................     3
Molitoris, Jolene, Assistant Director, Ohio Department of 
  Transportation.................................................     3
Puentes, Robert, Fellow, the Brookings Institution Metropolitan 
  Policy Program.................................................     3
Sims, Hon. Ron, King County Executive, Seattle, Washington.......     3
Wiley, Michael R., General Manager/CEO, Sacramento Regional 
  Transit District, Sacramento, California.......................     3
Yaro, Robert D., President, Regional Plan Association, New York, 
  New York.......................................................     3

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    45
Mitchell, Hon. Harry E., of Arizona..............................    46
Oberstar, Hon. James L., of Minnesota............................    47
Tauscher, Hon. Ellen O., of California...........................    51
Young, Hon. Don, of Alaska.......................................    54

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Kirby, Ronald F..................................................    56
Molitoris, Jolene................................................    63
Puentes, Robert..................................................    66
Sims, Ron........................................................    80
Wiley, Michael R.................................................   119
Yaro, Robert D...................................................   126

                       SUBMISSIONS FOR THE RECORD

Sims, Hon. Ron, King County Executive, Seattle, Washington:

  Letter to Rep. DeFazio.........................................    87
  Letter to Rep. Richardson......................................    89
  ``King County Equity and Social Justice Initiative: Working 
    Toward Fairness and Opportunity for All''....................    92

[GRAPHIC] [TIFF OMITTED] T1822.001

[GRAPHIC] [TIFF OMITTED] T1822.002

[GRAPHIC] [TIFF OMITTED] T1822.003

[GRAPHIC] [TIFF OMITTED] T1822.004

[GRAPHIC] [TIFF OMITTED] T1822.005

[GRAPHIC] [TIFF OMITTED] T1822.006



       HEARING ON TRANSPORTATION CHALLENGES OF METROPOLITAN AREAS

                              ----------                              


                        Wednesday, April 9, 2008

                   House of Representatives
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Peter 
A. DeFazio [Chairman of the Subcommittee] presiding.
    Mr. DeFazio. The Committee will come to order. Today is an 
important hearing. It is important, as we lead up to the 
reauthorization of the next surface transportation bill, that 
we begin to fully examine the major problems that are 
confronting our Nation and begin to hear from a range of people 
who can tell us how they have approached those problems, what 
has worked, and what hasn't worked, and how, in rewriting the 
bill in 2009, we might be able to remove some impediments or 
create new ways to deal with these very vexing problems.
    Today, in particular, we are going to deal with the issue 
of congestion, which is something that is affecting our Nation 
as a whole, obviously, both in the movement of freight and 
goods and affecting businesses, particularly those dependent 
upon just-in-time delivery; and it is obviously the most 
obvious and most frustrating daily concern of tens of millions 
of Americans trying to get to work or trying to go about their 
daily lives. So we have an excellent panel today and I look 
forward to hearing the testimony.
    With that, I would turn to Mr. Duncan, the Ranking Member.
    Mr. Duncan. Well, Mr. Chairman, thank you. I am pleased 
that we are having another hearing in preparation for next 
year's authorization of the National Highway Transit and 
Highway Safety programs, and today's hearing is going to have 
sort of a broad theme transportation: Transportation Challenges 
of Metropolitan Areas.
    We need to be having this type of hearing for many reasons, 
but especially because of something I read just a few weeks 
ago, and that is that two-thirds of the counties in the U.S. 
are losing population. And that surprises people because a 
great, great majority of the people live in our metropolitan 
areas, and where the fast growth is in this Country is, to some 
extent, in urban counties, but it is especially fast in the 
counties that circle or touch the urban counties, and that has, 
I think, very important and serious ramifications for our 
transportation policies both now and in the future.
    In today's hearing, rather than looking at specific 
existing highway or transit programs and determining where they 
are functioning as effectively as possible, we are looking at 
the needs of a particular type of region, and in future 
hearings we will explore other general themes, such as freight 
access and goods movement, infrastructure preservation and 
modernization, mobility and connectivity of rural areas, and 
highway safety.
    My hometown of Knoxville is considered a metropolitan area. 
Knox County has a population of about 410,000 now, but the 
SMSA, which includes some of the counties that touch on Knox 
County, is now 1.1 million. Of course, there are many other 
areas that are far bigger, but what we deal with in our area is 
just millions and millions of passengers or vehicles coming 
through on the way to Florida or to come to the Great Smokey 
Mountains National Park or for other reasons. We have two 
interstates that meet in Knoxville and a third that comes 
within 37 miles, and we are within 600 miles of, I think it is 
three-fourths of the population of the U.S. so we have far more 
traffic than even those population figures would indicate.
    There are 452 urbanized areas in the United States that the 
Census Bureau says are urbanized, but they consider anything 
over 50,000 to be an urban area. And what we have to look at is 
does it makes sense to even talk about New York City in the 
same way as an area like Fond du Lac or certain other very 
small urban areas. And when we talk about the transportation 
challenges of metropolitan areas and discuss possible policies 
to address those challenges, where do we draw the line? The 
U.S. has 37 cities with populations more than one million, and 
I think everyone would consider these very big cities. They are 
then 113 cities that are between 200,000 and one million in 
population.
    The other thing we need to consider is this. Some groups 
want gas to go up even higher so people will drive less. Yet, 
that would put the final nail in the coffin of some of these 
small towns and rural areas if that happens, and that would 
force more people into these urban areas, creating more 
congestion. So I think if some of these groups that don't want 
more urban sprawl and more congestion in these metropolitan 
areas, they are going to have to reconsider their opposition to 
more domestic energy production or, as I say, they are going to 
speed up the decline of some of these small towns and rural 
areas, and they are going to hurt a lot of low-income people in 
the process.
    I think the main thing, when we develop any new national 
transportation policies, we must retain the flexibility to 
address the very different kinds of needs that these very 
different sizes and types of metropolitan and even rural areas 
have. Larger metropolitan areas have access to policy and 
funding options that are not available to some of the smaller 
metropolitan areas. For example, congestion pricing is not 
really an option for Knoxville. And congestion not only in 
housing and overpopulation in some of these areas, but the most 
recent urban mobility report says that we are now losing $78 
billion just in traffic congestion.
    So I am looking forward to this hearing. I am pleased that 
you would call it and I look forward to hearing from the 
witnesses. Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the gentleman for his thoughtful 
statement.
    I believe that Mr. Space has an opening statement.
    Mr. Space. Thank you, Mr. Chairman. I would like to thank 
you, Mr. Chairman, and Ranking Member Duncan for holding this 
hearing today and specifically for inviting Jolene Molitoris 
from Ohio to testify. Jolene is the Assistant Director of the 
Ohio Department of Transportation. I think she has served in 
that capacity for about five and a half weeks now, but she is 
no stranger to this Committee.
    She was the former Federal Railroad Administrator under the 
Clinton Administration, and I believe the first woman to serve 
in that capacity. We are delighted to have her and her capacity 
in Ohio and we are delighted to have her here today. I am 
interested in hearing her testimony concerning the aging 
infrastructure in Ohio, as well as the increasing demands 
created by this Country's chronic under-investment in its 
highway infrastructure.
    I am also interested in hearing about how we can better 
establish a Federal-State partnership so that we can meet those 
demands in Ohio as well as in every other State of the Country. 
And while I don't have any metropolitan or urban areas even 
under the 50,000 person criteria in my district, we do have a 
situation in Ohio's 18th where a lot of our folks have to drive 
sometimes 50, 60, 70, 80 miles a day into the urban areas just 
for work, sometimes to work at $8 or $10 an hour jobs, paying 
$3.22 a gallon for gas. So I am interested in hearing how we 
can better enhance those transportational options.
    Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the gentleman.
    Any other opening statements? I know, Dave, you want to 
introduce, but we will get to that point.
    Okay, with that, we will begin the testimony, first from 
the Fellow from the Metropolitan Policy Program at Brookings 
would be Mr. Puentes.

TESTIMONY OF ROBERT PUENTES, FELLOW, THE BROOKINGS INSTITUTION 
    METROPOLITAN POLICY PROGRAM; ROBERT D. YARO, PRESIDENT, 
 REGIONAL PLAN ASSOCIATION, NEW YORK, NEW YORK; THE HONORABLE 
 RON SIMS, KING COUNTY EXECUTIVE, SEATTLE, WASHINGTON; JOLENE 
       MOLITORIS, ASSISTANT DIRECTOR, OHIO DEPARTMENT OF 
    TRANSPORTATION; MICHAEL R. WILEY, GENERAL MANAGER/CEO, 
 SACRAMENTO REGIONAL TRANSIT DISTRICT, SACRAMENTO, CALIFORNIA; 
AND RON KIRBY, TRANSPORTATION DIRECTOR, METROPOLITAN WASHINGTON 
            COUNCIL OF GOVERNMENTS, WASHINGTON, DC.

    Mr. Puentes. Thank you very much, Mr. Chairman, Ranking 
Member Duncan, Members of the Committee. I am pleased to appear 
before you this morning and very much appreciate the 
invitation.
    The purpose of my testimony is to provide an overview of 
critical metropolitan transportation challenges. And in so 
doing, I would like to make the point that our metropolitan 
transportation challenges in many ways are our national 
transportation challenges. Perhaps more than any other area of 
domestic policy, transportation is highly spatially 
concentrated and not distributed evenly across the American 
landscape.
    Metropolitan areas are where most Americans live, work, and 
produce the majority of the Nation's economic output. The 
services and revenue they generate drive State economies and 
they are our front lines of competitiveness in the global 
economy.
    As a consequence, all roads and rail and air traffic 
literally lead to these metropolitan engines. The top 100 
metros handle 75 percent of our Nation's seaport tonnage, 79 
percent of air cargo weight, 72 percent of air passengers, and 
96 percent of rail travelers.
    Mr. Chairman, Mr. Duncan, the time is long past due for a 
national transportation vision that recognizes the metropolitan 
concentration of our economic life. But it requires an extreme 
makeover, with a fundamentally new approach to almost every 
aspect of national transportation policy: how we allocate 
funding, set priorities, apportion responsibilities, engage the 
private sector, price the system, connect transportation to 
other policies, and how we move from our current decision-
making to empirically-grounded policy.
    Fortunately, the time is ripe for such systemic reform. 
From genuine concern about the condition and quality of our 
existing infrastructure, to difficulties and lack of choices in 
moving people and goods, to major national problems like 
climate change, foreign energy dependency, and strained 
household budgets, there is growing recognition that, if left 
unchecked, these challenges threaten not only the quality of 
life in our metropolitan areas, but also the competitiveness of 
our Nation. At the same time, these debates are taking place in 
a fiscally constrained environment that should be the 
motivating factor for real reform.
    Now, the problem is that the current slate of Federal 
policies and the lack of clear policy in specific areas 
actually appear to exacerbate the range of metropolitan 
transportation challenges. We feel there are three major policy 
flaws.
    First, for the vast majority of the program, the Federal 
Government is absent, when it should be present, such as in 
dealing with the basic movement of people and goods across 
States and between metropolitan areas and mega-regions. Today, 
the Nation has no overarching agenda or strategic plan for 
coping with the projected increases in freight movement or in 
how passengers would travel these longer distances.
    Second, as a program with its roots in the 1950s, the 
Federal Surface Transportation Program is woefully outdated. 
For one thing, the program is not attuned to the needs, 
problems, and challenges of metropolitan areas. Additionally, 
Federal Highway Trust Fund dollars continue to be distributed 
to its grantees based largely on consumption. More than half of 
the funds authorized in SAFETEA-LU are apportioned to States 
based on traditional factors: amount of roads, miles driven, 
fuel consumed, and gas tax paid. There is no reward for 
reducing consumption in any of these formulas; thus, 
investments to reduce VMT, fuel consumption, or lane miles is 
antithetical to how States receive funds.
    The third major policy problem is that the program is 
under-performing and failing to maximize efficiencies. Without 
a vision, goals, purpose, or means for targeting, the U.S. 
approach to transportation has been to keep throwing money at 
the problems. While additional sources are certainly important, 
the Federal Transportation Program has almost no focus on 
outcomes, performance, or accountability. More fundamentally, 
analytical exercises are largely impossible due to the 
astonishing lack of data and information. Incredibly, it is 
easier for citizens to discern where private banks and thrifts 
lend than to determine where public transportation agencies 
spend.
    Mr. Chair and Mr. Duncan, I believe we need a systemic 
change in the way we think about, design, and implement 
transportation policies. This means the development of a three-
pronged strategy to lead, empower, and maximize performance 
across the Nation and its metropolitan areas.
    First, the Federal Government should lead and develop a 
coherent national vision and focus on specific areas of 
national importance: the preservation and maintenance of the 
interstate system, the development of a true intermodal freight 
agenda, and a comprehensive national plan for intermetropolitan 
area passenger travel.
    Second, the Federal Government should also empower major 
metropolitan areas by giving them direct transportation funding 
and the flexibility to make unbiased decisions between 
different modes of transportation. To ensure that States and 
metros can innovate, Federal transportation policy needs to be 
modally neutral and outcome based.
    Third, the Federal Government needs to reorient 
transportation policy to remedy the mistakes of the past and to 
establish a coherent performance-based program for the future. 
Lost in the dominant discussion about how much money we are 
spending on the Federal transportation program is a frank and 
rigorous debate about how to spend that money better. After 
such a discussion, I believe all options toward reinvigorating 
transportation funding should be on the table for 
consideration.
    In conclusion, I believe that during this time of economic 
uncertainty, environmental anxiety, and household stress, the 
Nation must get the most out of its largest discretionary 
domestic program, transportation. By focusing reforms on these 
three major policy areas, Federal transportation policy can 
move from the outdated, outmoded structure that exists today to 
something that actually works for the Nation and for 
metropolitan America.
    I look forward to this Committee's ongoing leadership and I 
want to thank you very much for the opportunity to appear 
before you today.
    Mr. DeFazio. Thank you.
    Next we will have Robert D. Yaro, President of Regional 
Plan Association of New York, New Jersey, Connecticut. Mr. 
Yaro.
    Mr. Yaro. Good morning. Thank you, Mr. Chairman, and thank 
you, Ranking Member Duncan and Members of the Committee for the 
opportunity to testify today on the transportation challenges 
of metropolitan areas.
    I am Bob Yaro. I am President of Regional Plan Association. 
We are America's oldest, independent metropolitan planning 
organization. Founded in 1922, RPA shapes the growth of the New 
York metropolitan region, but has weighed in on national 
policies at key points during our history, including 
participation in efforts--actually, leadership--of the National 
Resources Planning Board back in the 1930s during the New Deal, 
when our then Chairman Fred Delano chaired that Commission on 
behalf of President Roosevelt; and the advocacy in the 1960s 
that we led a campaign in support of the creation of the Urban 
Mass Transit Administration, now the FTA.
    Now, RPA is currently engaged, and has been for the past 
several years, in a national initiative called America 2050, 
the goal of which is to develop a strategic framework for 
America's future growth.
    Let me get straight to the point: America's transportation 
policy is currently not doing the job to meet the needs of 
America's metropolitan regions as they struggle with increased 
population, aging infrastructure, rising congestion, the global 
imperative to reduce carbon emissions. And, yet, metropolitan 
regions are the places where we have the best opportunity to 
achieve several national goals.
    One is to accommodate anticipated population and economic 
growth; two, to compete in a global economy; three, to 
coordinate land use and development transportation decisions to 
make public transit, walking, and biking options viable and 
enjoyable; and, finally, in so doing, to reduce VMTs, reduce 
congestion on the interstate system, and on local highways 
across the Country and to reduce their impact on global climate 
change.
    We believe that the Country requires a massive investment 
in infrastructure and that most of the need, as Rob Puentes 
pointed out, is in fact concentrated in the Nation's 
metropolitan regions. We can't, in good faith, allow our 
national investment in the highways, bridges, and public 
transportation systems to fall into disrepair, and we can't 
invest in new capacity projects that promote low-density, 
inefficient development patterns when major metropolitan 
economies struggle because of under-investment in their 
existing systems. Finally, we believe that we need a vision as 
a Nation for the Federal role in transportation that rises 
above the parochial squabbles of which State gets the biggest 
piece of the Federal funding pie.
    America 2050 was launched in 2005 to respond to four key 
challenges facing metropolitan regions across the Country and 
the Country as a whole. First, America's population is growing. 
The Census Bureau has estimated that we will add somewhere in 
the neighborhood of 120 million additional residents by 2050, a 
40 percent increase over today's levels. We have simply used up 
the capacity of our 20th century infrastructure systems in 
metropolitan areas across the region to accommodate that 
growth.
    Second, our global competitors are investing ambitiously in 
21st century infrastructure systems while we struggle to 
maintain a 20th century and in some cases, like the Baltimore 
rail tunnels, a 19th century system. The places that we are 
increasingly competing with--China, India, Spain, the rest of 
Europe, the developing countries around the world--are 
investing 10 percent, 8 percent, or 7 percent of their GDP--
that is China, India, and Spain, respectively--on 
infrastructure, compared to America's 1 percent.
    Third, transportation accounts for 30 percent of America's 
share of greenhouse gas emissions, and the share is growing due 
to rising VMTs. Meanwhile, we must reduce carbon emissions 80 
percent by 2050 to avoid the most catastrophic effects of 
climate change.
    Fourth, we are witnessing the emergence of mega-regions, 
and we have this image up on the charts here today, the slides 
that show the networks of metropolitan regions linked by 
economic agglomerations and transportation links. Eleven of 
these regions are emerging nationwide, which will absorb over 
70 percent, close to three-quarters, of projected population 
and economic growth by 2050. These mega-regions are competing 
with similarly sized global integration zones--that is the 
European term--in Europe and Southeast Asia, where tens of 
billions of dollars in investments have been made in high-speed 
rail and goods movement systems to support the highly mobile 
workforce of the global economy.
    Together, these challenges require a dramatic new approach 
and role for the Federal Government in charting an ambitious 
and strategic framework for the Nation's growth. It turns out--
and we have done some work on this that we would be delighted 
to share with you--that this Country has a history of ambitious 
national plans which define its growth, beginning with the 1808 
Gallatin Plan, which President Jefferson commissioned to look 
at ways to integrate the Louisiana Purchase into the rest of 
the Country and out of which came proposals that were 
implemented for a national system of roads--initially canals, 
later railroads--incentivized by the Federal Government in 
accordance with a national plan developed by Albert Gallatin, 
the Treasury Secretary from the Jefferson through the Madison 
administrations.
    A century later, in 1908--and I hope these dates resonate 
with you, 1808 and then 1908--President Roosevelt convened the 
first meeting of the Governors Conference and then led, coming 
out of the Governors Conference, in 1908, a national plan led 
by Gifford Pinchot, Forest Service Director, to develop a 
nationwide network of resource-based economic development, 
resource protection, and water management projects, which 
became the inspiration for projects like the Tennessee Valley 
Authority, the Bonneville Power Administration, and these other 
projects, the Colorado River Project, that made 20th century 
America possible. Later, the interstate system, again developed 
in the 1930s, the concept by the National Resources Planning 
Board.
    That brings us to 2008. So the sequence here, 1808, 1908, 
2008. We need a new national infrastructure strategy building 
on the tradition of the Interstate Highway Act. I would like to 
suggest three points in developing this system. First, we need 
a national transportation investment plan, a physical plan for 
the development of the infrastructure, similar to the 
interstate system. Second, we need to maintain the existing 
system of interstate highways and transit systems. And, third, 
we need to direct more resources to metropolitan regions to 
give them the flexibility and the authority to develop these.
    There is no more suitable role for the Federal Government 
than to chart the direction of the Nation's growth. You are 
standing in the shoes and in the footsteps of Jefferson and 
both Roosevelts and so forth, the oldest tradition in American 
national policy and development. Now is the time to develop an 
ambitious framework for these investments to shape the Nation's 
prosperity and sustainability for generations to come. Thank 
you.
    Mr. DeFazio. Thank you, Mr. Yaro.
    I now turn to our colleague, Mr. Reichert, to introduce the 
next panelist.
    Mr. Reichert. Thank you, Mr. Chairman. I want to thank you 
for giving me this opportunity to introduce my good friend, Ron 
Sims, who has worked tirelessly for the people of the great 
State of Washington and of King County, and the 8th District, 
which I represent, since his election to the King County 
Executive's Office. Actually, the County Council first in 1985 
and then his appointment as King County Executive in 1996.
    Ron has been a champion of mass transit innovation and 
reform as King County and its surrounding areas continue to 
growth at a breakneck pace. On a personal note, he has worked 
closely with the Sheriff's Office in King County, an office 
which he appointed me to--and I gratefully thank him for that--
in 1997, an office which I held until I came to Washington, 
D.C. to represent the 8th District.
    Ron recognized not only the need for a mass transit system, 
successful system not only needs to be affordable, but it needs 
to be efficient and it also needs to be safe. As Executive, he 
we charged with overseeing the fourteenth largest county in the 
Nation. It includes the City of Seattle and the City of 
Bellevue in the 8th District, with an overall population of 1.8 
million people. King County is home to about 30 percent of 
Washington State's population and an even larger percentage of 
its congestion woes.
    I welcome him to this Committee and look forward to Mr. 
Sims' testimony. Thank you, Ron, for being here.
    Mr. DeFazio. Thank you, Mr. Reichert.
    Mr. Sims.
    Mr. Sims. Mr. Chairman, Ranking Member Duncan, and Members 
of the Committee and my good friend, Congressman Reichert, it 
is always good seeing you. I want to thank you for inviting me 
to testify today about the transportation challenges facing 
America's metropolitan areas, the economic engines of this 
extraordinary Country.
    I am King County Executive Ron Sims. I am proud to serve as 
the elected leader of the fourteenth largest county in the 
Nation. Our county contains Seattle and Bellevue, and 38 other 
cities as well, farmlands and forests. It is the home to 1.8 
million people and includes the corporate headquarters for 
companies as diverse as Starbucks, Amazon.com, PACCAR, and, of 
course, Microsoft.
    Our region's economy and population are both growing 
extremely fast. The Puget Sound region is expected to add 1.5 
million people over the next 30 years. I think about how the 
decisions I make as an elected official today will shape what 
our region looks like decades from now, and about whether the 
people living there, including my children and now my 
grandchildren, will enjoy well-being and prosperity. That is 
why I am pleased to speak before you today about 
transportation, which consistently polls as one of the most 
important concerns of the public, especially the issues of 
traffic congestion.
    Transportation is vital to our region's economy and 
metropolitan areas like mine are, in turn, the drivers of the 
American economy. According to The Brookings Institution, 
America's top 100 metropolitan areas generate 75 percent of the 
Nation's gross domestic product. Our Puget Sound region, made 
up of three counties, is the twelfth most populous metropolitan 
area in the Nation. About half of Washington State's population 
resides in the region, and just under 30 percent in King County 
alone. But Puget Sound accounts for more than two-thirds of the 
value of all goods and services produced in the State of 
Washington.
    Based on our own experience, these economic engines could 
begin to sputter if we do not address two major transportation 
challenges facing metropolitan regions: aging highway 
infrastructure and crippling traffic congestion. According to 
the Texas Transportation Institute, in 2003, congestion in the 
top 85 urban areas caused 3.7 billion hours of travel delay and 
2.3 billion gallons of wasted fuel at a total cost of $63 
billion. In addition, the transportation sector generates 33 
percent of harmful greenhouse gas emissions, and increased 
passenger vehicle miles traveled in idling and congestion hurts 
our national environmental goals.
    The good news is that we have innovative approaches and new 
tools available for us to meet those challenges. Instead of 
viewing transportation narrowly as an issue of road capacity, 
we are gaining many benefits by taking a broad approach that 
looks at the whole transportation systems; that consider 
transportation impacts in the broader context of the economy, 
national security, the environment, and social needs; and that 
employs an integrated set of transportation management tools. 
Many tools are available to us. Variable tolling in combination 
with increased transit services hold particular promise as a 
tool for reducing traffic congestion and paying for 
infrastructure improvements. My written testimony includes two 
case studies that illustrate how new tools and innovative 
approaches can be used to replace aging transportation 
infrastructure and to reduce congestion; however, I am going to 
highlight only one of them today.
    The State Route 520 bridge replacement project involves the 
Lake Washington floating bridge between I-5 and I-405, one of 
the most congested corridors in the region. This corridor 
connects Seattle and the growing suburban cities, linking major 
technologies, manufacturing, and residential centers. It is 
critical to our region's and our counties' economic core.
    520 was built in 1963 as a four-lane toll bridge. The 
bridge was designed to carry 65,000 cars per day; today it 
carries an overage of 115,000 cars per day. State engineers 
gave the bridge a rating of 44 out of 100 on the recent 
structural integrity test. For comparison, the bridge that 
collapsed in Minnesota last year was rated a 50.
    Last spring, King County and the Washington State 
Department of Transportation and the MPO, the Puget Sound 
Regional Council, successfully competed for the U.S. Department 
of Transportation's Urban Partnership Program. Our strategy 
incorporates variable tolling, expanded transit technology to 
improve efficiency, and increased telecommuting. We estimate an 
increase of up to 35 percent in transit ridership, as well as 
reduction of vehicle miles traveled and greenhouse gas 
emissions. In addition, revenue generated by variable tolling, 
along with gas tax revenue, will be used to finance the 
replacement of this tired, aging bridge.
    Last August, the Lake Washington Urban Partnership was 
awarded $127 million to implement this strategy, and the 
Washington State Legislature, in its recently completed 2008 
session, passed a policy bill that will enable variable tolling 
to be on the 520 bridge.
    I believe metropolitan regions across the Country are ready 
to take bold, new approaches like this to solving the 
challenges of critical aging road infrastructure and 
congestion, and we hope you will consider several key 
principles as you take up the matter of reforming national 
policies concerning Federal highway and transit investments.
    First, we need a holistic approach to transportation 
investment. Dividing transportation funding into narrow 
programs and projects tends to limit thinking on the best way 
to solve transportation problems. Particularly in the larger 
metropolitan areas, we need to have the local officials who are 
responsible for the streets, transit, and non-motorized travel 
sitting in the same room with State highway officials to come 
up with the best transportation solutions. Transportation 
decisions must also take into account the broader role of 
transportation in the society.
    Land use and transportation are inextricably linked. 
Reducing sprawl and long drive times can improve our quality of 
life and our health. For example, King County recently 
undertook a land-use transportation and air quality and health 
study that demonstrated the links between how communities' 
transportation systems are built and the effects on public 
health. Environmental impacts must also be considered in 
particular. The transportation sector's production of 
greenhouse gas emissions is critical. We need to observe those. 
Strategies that reduce vehicle miles, travel such as compact 
development, increase transit; highway pricing are essential 
for our efforts to combat global warming.
    Our holistic approach should also employ a coordinated set 
of transportation strategies to improve mobility, rather than 
the narrow focus on roads alone.
    Second, we need to reduce our dependence on unreliable 
sources of foreign oil. This is both an economic and a national 
security imperative.
    Third, the principal concerns who should manage tolling 
projects. While I share current Administration's interest in 
variable tolling as a congestion relief tool, I do not support 
privatizing our publicly financed infrastructure assets. These 
assets must be managed to meet the public's transportation 
needs and responsibility to do so much remain with the 
government. At the same time, we must not divert tolling 
revenues to general government purposes.
    Finally, we must consider social equity as we embrace 
variable tolling. I believe variable tolling is less burdensome 
to low-income residents than sales, property, gas, or car 
taxes. Variable tolling also gives people choice either to 
travel during off-peak hours, take slower roads to reduce 
costs, or to pay for important trips. Low-income bus riders 
also benefit from faster and more reliable bus trips after 
tolling reduces congestion. Transit must be a variable tolling 
proposal. In our county, 95 percent of all residents are within 
one-quarter mile of a transit stop and within one and a half 
miles of a Park & Ride lot.
    Mr. DeFazio. If you could summarize quickly now. You are a 
bit over.
    Mr. Sims. Public opinion nationally and locally indicates a 
strong preference for tolling over sales and other vehicle-
related fees.
    Mr. Chairman and Ranking Member of the Committee, thank you 
very much for this opportunity to speak to you.
    Mr. DeFazio. Thank you, Mr. Sims.
    The next witness, as was noted by Representative Space, is 
no stranger to the Committee and we welcome her back in her new 
role as Assistant Director of the Ohio Department of 
Transportation. Ohio is lucky to have you. Ms. Molitoris.
    Ms. Molitoris. Thank you so much, Mr. Chairman and Ranking 
Member Duncan and Members of the Committee, and for your kind 
introduction, Congressman Space. It is good to be home, Mr. 
Chairman. On behalf of the governor, Governor Strickland, and 
Director Beasley, I want to thank you for having this hearing; 
it is a very important one. As you have said, I am in my fifth 
week as the Assistant Director of Transportation, so it is good 
to be back.
    My message to you will be really three-fold: we, Ohio, have 
an urgent need for adequate Federal investment. Number two, our 
transportation challenges in metropolitan areas are critical 
and we need a partner. We need a Federal partner that will work 
with us at all levels to solve our problems.
    First of all, our highest immediate need is the solvency of 
the Highway Trust Fund. We face a loss of somewhere between 
$140 million and $400 million, and these will affect projects 
next year and the year after, and many of them, if not most of 
them, are in the urban areas. So it is a critical issue. 
Second, for a State that is thirty-sixth in land mass, we have 
a large number of metropolitan areas; seven are very large and 
ten small. So we are facing these critical issues all over our 
State. And the under-investment that has been going on for 
decades leaves us with a deteriorating system and one in dire 
need of repair.
    It has to be upgraded, and some people say it is like 
threading an eight-lane highway through the eye of a needle 
because these roads are tightly woven into built areas, so 
everything is very, very expensive. Even on and off ramps, 
something as simple, apparently, as that, 30 years ago they 
were up to snuff; today they are not even safe by today's 
standards. We often try to do the repair under traffic because 
there are no alternatives; makes it much longer and much, more 
expensive.
    With regard to our donor status, I have to mention that 
SAFETEA-LU helped some; we are at 92 now. However, every dollar 
we give to FTA we get 51 cents back. This is just totally 
unacceptable. In addition, the bias toward highway investment, 
with a 90 percent possible and only 50 percent for alternatives 
like public transportation is unacceptable for our goals in 
Ohio. Governor Strickland is committed to a multimodal 
transportation solution. It is what we need. It is what we need 
to help attract jobs and retain the businesses that we have. 
Just last week, the governor and our legislature introduced a 
bipartisan economic incentive bond package of $1.57 billion, 
and this will be major investments in logistics, bridges, other 
transportation projects and infrastructure.
    So I am here to say we are stepping up to the plate. We are 
trying to begin to create solutions at home, but we need a 
partner. The private sector is helping us; other public 
entities. My colleague, Chester Jourdan, who is President of 
the Metropolitan Planning Agency in Central Ohio, is here. We 
have broken down those divisions between us; we know that we 
have to work together. And we need that same kind of 
partnership with the Federal Government. We can't do it alone; 
we need your help.
    One story, one real story. It is a simple one, but I think 
it really says something important. We have 59 public transit 
systems and we serve half a million customers every weekday, 
and over 60 percent are work-related trips. For Ohioans, many 
of them, it is public transportation or it is public 
assistance. That is how dramatic it is. In Cleveland, for 
example, ranked as the poorest city in America last year, one 
out of every four persons does not have access to an 
automobile.
    Last year, a new shopping center was set to open on the 
site of an abandoned steel mill, the redevelopment in a core 
urban metropolitan area meant to bring jobs for those who 
didn't have them. At the new Target store, to get those jobs, 
they found out half the people needed public transit; they 
couldn't get there any other way. By investing only $200,000, 
the transit system in Cleveland was able to provide the service 
that was needed. However, they had to take it from someplace 
else, because they didn't even have $200,000 of wiggle room.
    So the bottom line for us, Mr. Chairman and Ranking Member 
Duncan, is that we need for you to be our partner. We need 
realistic, adequate investment levels to get our system where 
it needs to be, because if we are going to be a first rate 
State and if we are going to be a first rate Country, we need a 
first rate transportation system. Thank you very much, sir.
    Mr. DeFazio. Thank you.
    Next we have Michael Wiley, General Manager/CEO of 
Sacramental Regional Transit.
    Mr. Wiley. Chairman DeFazio, Ranking Member Duncan, Members 
of the Committee, thank you for allowing me the opportunity to 
address you today, and also a special thank you to 
Congresswoman Matsui, a tremendous advocate for Sacramento and 
our public transit system.
    I have worked for Regional Transit for over 30 years, so I 
have a strong familiarity with our relationships with our State 
DOT, as well as our local MPO. The Sacramento region's MPO, 
SACOG, has developed an innovative land use program called the 
Blueprint that integrate transit with smart growth. For this 
innovative plan to be successful, the partnership between 
Regional Transit, SACOG, and CalTrans, our State DOT, must 
continue to grow.
    The Sacramento region's growth has exceeded both State and 
national averages. Development has historically relied on the 
practice of building large lot, low-density housing with no 
integration of retail, employment, or public services. A 
continuation of this sprawling growth in the next 20 years will 
consume another 660 square miles of farmland and greenfield if 
allowed to continue undeterred.
    In 2004, SACOG took the first big step to reverse this 
trend and set us on a path to a brighter future. The Sacramento 
region's Blueprint is intended to guide land use and 
transportation choices over the next 50 years as the region's 
population grows from 2 million today to more than 2.8 million. 
SACOG crafted an alternative land-use vision that embraces 
smart growth concepts, higher density mixed use transit-
oriented developments, reinvestment in existing neighborhoods, 
and more transit choices as an alternative to sprawl.
    To compliment this new land use vision, last month SACOG 
adopted the Metropolitan Transportation Plan. The MTP provides 
a new vision for transportation in our Greater Sacramento 
region. The combined Blueprint and MTP estimate that transit 
trips will increase over 600 percent. The percentage of trips 
taken by transit to downtown Sacramento will increase from 20 
percent today to over 40 percent. To support this transit 
expansion, the MTP also calls for the passage of an equivalent 
of an additional one half cent local sales tax by 2012.
    In response to this new vision and future reliance on 
transit, Regional Transit is undertaking a comprehensive update 
of our transit master plan. This update will guide RT for the 
next 30 years and will provide a detailed implementation 
strategies, programs, and projects that will assure the success 
of our Blueprint and MTP.
    Regional Transit, SACOG, and Caltrans work closely to 
utilize flexible Federal funds by allowing local decision-
making to apply the funds to the most urgent needs. The 
Sacramento region and the State of California have stepped up 
to provide support with local matching funds. RT's recently 
completed $206 million Amtrak Fulsom light rail extension is an 
example of this strategy, where local, State, and flexible 
Federal funds provided 100 percent of the project funding.
    In 2009, RT will begin the construction of a one-mile light 
rail extension that will be the first phase of an eventual New 
Start federally-funded light rail project that will bring 
service to Sacramento's International Airport. The first phase 
of this one-mile extension will be funded entirely with local 
and State dollars.
    In 2006, California voters passed over $20 billion in 
general obligation bonds to fund transportation improvement 
projects.
    Regarding reauthorization, it is crucial that Congress 
identify a funding source that is sustainable and grows to meet 
the Nation's infrastructure needs. Priority for funding should 
be granted to those urban locations that are considered non-
attainment areas for air quality. Those regions that provide 
local funding and commitment to land-use plans, that create 
more compact transit-supportive neighborhoods should be given 
financial incentives to continue this practice. Adoption of 
smart growth principles is a key step in cleaning our air and 
reducing our dependency on foreign oil. We must also look at 
more flexibility between highways and transit funding and 
create criteria that focuses on and rewards vehicle mile travel 
reduction and greenhouse gas emission reductions.
    Today, in Sacramento, a productive relationship between 
SACOG, Caltrans, and RT has resulted in better outcomes 
measured by funding allocations and projection selections. By 
recognizing the central role of public transit in achieving 
critical national policy goals, including national security, 
cleaner air, energy conservation, and reducing dependency on 
foreign oil, we create more livable communities.
    In conclusion, a strong partnership between transit, the 
metropolitan planning organization, and the State DOT will 
ensure that these goals are reached in a much more timely 
manner, and such partnerships need to be encouraged and 
rewarded by national policy. Thank you very much for your time.
    Mr. DeFazio. Thank you, Mr. Wiley.
    The last witness will be Ronald Kirby, Director of 
Transportation Planning, National Capital Region Transportation 
Planning Board, Metropolitan Washington Council of Governments, 
a long title. Thank you. Mr. Kirby.
    Mr. Kirby. Good morning, Mr. Chairman, Ranking Member 
Duncan, Members of the Committee. I will forego repeating that 
title. I am the MPO Director for the Washington metropolitan 
area. The Transportation Planning Board, or TPB for short, is 
one of 385 MPOs currently serving urbanized areas throughout 
the Nation, and is an active member of the Association of the 
Metropolitan Planning Organizations nationally.
    Membership of the TPB includes representatives of the 
transportation agencies of the States of Maryland and Virginia 
and the District of Columbia, 20 local governments in the 
Washington region, the Washington Metropolitan Area Transit 
Authority, the Maryland and Virginia general Assemblies, and 
non-voting members from the Metropolitan Washington Airports 
Authority and Federal agencies; 40 board members in all.
    The transportation challenges facing the Washington 
metropolitan area are common to many large, growing 
metropolitan areas throughout the Country. Currently, the area 
is home to 5 million people, a little more than that, and 3 
million jobs. Over the current planning period of 2008 through 
2030, we are expecting increases in population and jobs of 26 
percent and 31 percent, respectively, which will lead to 
additional vehicles, trips, and congestion on the region's 
transportation system.
    Because of funding constraints, highway lane miles are 
expected to increase by only 13 percent over this period, while 
vehicle miles of travel are expected to rise 23 percent, 
resulting in a 41 percent rise in lane miles of congestion in 
the a.m. peak period. The outer suburbs will experience the 
most dramatic increase in congestion, with more than 100 
percent increase in lane miles in congestion over this period. 
Transit work trips are forecast to increase by 31 percent, 
which will create even more crowding on the Metrorail system 
because transit capacity is also limited by funding 
constraints.
    Emissions of ozone precursors and fine particulates for 
motor vehicles are declining steadily due primarily to cleaner 
vehicles and fuels, and the Washington region is on track to 
attain national standards for these pollutants. Carbon dioxide 
and other greenhouse gas emissions from motor vehicles continue 
to increase, however, and represent a major new challenge.
    Transportation revenues projected to be available to the 
Washington region over the period of the plan, through 2030, 
come from several different major sources: Federal 27 percent, 
State 32 percent, local government 17 percent, transit fares 17 
percent, and tolls 7 percent. The share of funding from tolls 
has grown from just 1 percent in 2003 to 7 percent currently, 
due to the addition in the plan of three major new highway 
projects which will have tolls that vary by time and day to 
manage congestion.
    Our studies indicate, however, that these tolls revenues 
will be needed to finance construction, operation, and 
preservation of the toll facilities, along with expanded 
transit services, and will not in any way substitute for other 
sources of transportation funding, all of which will need to be 
sustained and increased if the region's transportation 
challenges are to be addressed.
    A number of proposals and recommendations are currently 
being advanced for refocusing the Federal Surface 
Transportation Program on key national priorities when the 
program is reauthorized next year. Three major goals stand out 
as national priorities around which the Federal program could 
be structured: firstly, preservation and operation of the 
existing system; secondly, high-value investments in new 
infrastructure capacity; and, thirdly, support for metropolitan 
areas to address pressing congestion, environmental, and social 
challenges.
    With the mid-20th century goals of building the interstate 
highway system and recapitalizing the urban transit systems 
accomplished, it is time to replace the modally-oriented 
program delivery structure designed around those earlier 
purposes with a mode-neutral Federal program to support system 
preservation and operations, as well as new infrastructure 
investments aimed at critical choke points in surface, 
passenger, and freight transportation systems. I would agree 
with an earlier witness that the rail tunnel in Baltimore is 
one of those major choke points that needs attention.
    MPOs have long believed that in addition to formula funding 
for metropolitan planning, the Federal transportation program 
should provide formula-based funding directly to metropolitan 
areas for project selection and implementation. Such funding 
would empower metropolitan areas to turn strategies developed 
in response to Federal planning requirements into real projects 
on the ground.
    A relatively small scale but nevertheless groundbreaking 
provision of SAFETEA-LU provides a model for how a new 
metropolitan transportation program could be structured and 
administered. Prior to SAFETEA-LU, the Job Access and Revert 
Commute Discretionary Program administered by the Federal 
Transit Administration for metropolitan areas had become 
unwieldy and heavily earmarked. SAFETEA-LU restructured JARC 
along with a new New Freedom Program into formula programs 
allocated to metropolitan areas in accordance with urbanized 
area population. Metropolitan areas were required to designate 
recipients who could administer these programs through a 
transparent and competitive project selection process. The TPB 
was among the first of almost 30 MPOs that sought and received 
these designations.
    This JARC and New Freedom delivery mechanism could be the 
basis for a much broader and more comprehensive program of 
project selection and implementation at the metropolitan level. 
A number of other disparate elements of the current Federal 
program could be bundled together with the JARC and New Freedom 
programs into a metropolitan program that would bring project 
selection and implementation closer to local government and 
stakeholder groups. Examples include funding devoted to such 
priorities as pedestrian safety, coordination of transportation 
operations and incident management, promotion of commuter ride 
sharing transit, bicycling and other alternatives to single 
occupant vehicle use, and perhaps most important of all, the 
coordination of transportation and land-use planning and 
implementation at the local and metropolitan levels.
    In closing, Mr. Chairman, I would like to express the 
appreciation of the MPO community for the strong and growing 
support the Congress has provided for metropolitan 
transportation planning in the ISTEA, TEA-21, and SAFETEA-LU 
authorizations. Federal planning resources and requirements in 
these bills have provided a firm foundation for MPOs to assume 
increased responsibilities not only for planning, but also for 
some key new components of program delivery.
    Thank you again for giving me the opportunity to testify 
before you this morning.
    Mr. DeFazio. Thank you, Mr. Kirby.
    We will now proceed to questions. I guess my first 
question, particularly directly to Mr. Sims and Mr. Kirby, but 
others can certainly have an opinion on this and I would be 
happy to hear from them, is on the issue of imposing tolls on a 
system previously not tolled and/or congestion pricing on that. 
I guess my concern is about the viability of alternatives.
    I think someone raised, I can't remember who it was, the 
social equity issue. I think that was Mr. Sims also. I mean, 
the question would be imposing congestion pricing or tolling. 
And someone else testified as to how there are many people--and 
I think it might have been, I can't remember, Ms. Molitoris or 
Mr. Wiley--about what percentage of people had current access 
to transportation alternatives.
    How are you approaching that, Mr. Sims, given those equity 
issues?
    Mr. Sims. Mr. Chairman, in our county, because we are very 
similar to Oregon in regards to how we have developed, we have 
a defined urban area, under 1.8 million, and in that urban area 
95 percent of our people have access to transit, as well as 
within a mile and a half of a Park & Ride lot.
    We did a pretty definitive study on race and equity, a 
pretty blunt study that I think stunned our community in 
regards to the impacts of what was happening to the people of 
color in our community and poverty in our community, and we 
have said that we have to increase what we call the options of 
choice. Variable tolling does that for us because we believe 
variable tolling coupled with the ability to use tolling 
revenues to increase your transit capacity is key.
    Mr. DeFazio. And what would be the sequencing? Would you 
have to impose the tolling and then a few years later you 
enhance transit, or would you enhance transit before you do the 
variable tolling, or at the same time?
    Mr. Sims. We are doing it at the same time. We already have 
a very robust transit system; we are the seventh largest in the 
United States.
    Mr. DeFazio. But when you talk about people having access, 
the question is do you measure the elapse time. I mean, okay, 
you have access to an option, 95 percent of the people have 
access, but does that access mean three changes of lines and 
does it take them an hour and twenty minutes to get to work 
versus what if they drove themselves, even with congestion? Do 
you compare those things?
    Mr. Sims. We compare those things, but the way our system 
is designed, in fact, we can provide ready choice. Our issue is 
the expansion of transit using tolling revenues, because right 
now, as gas prices have gone up, we have seen that people who 
are poor, in particular, desiring to actually have increased 
transit access. The way we do it right now in our county is 
through a sales tax.
    Using tolling for the purposes of financing expanded 
transit to us is very, very important. What we found in all of 
our polls was that poor people actually had the strongest views 
on variable tolling, its desire to see it used for expansion of 
transit. They wanted that choice and that option. So, to us, 
variable tolling in this day and age as a method of financing 
transit expansion is critically important, particularly if you 
are talking about equity issues.
    Mr. DeFazio. Okay. Anyone else on that issue? Mr. Kirby?
    Mr. Kirby. Thank you, Mr. Chairman. I alluded to three 
major projects that we are moving forward with in this region 
with congestion tolls. All of them are new lanes or conversion 
of HOV lanes, existing lanes, so that no one is going to be 
tolled on a lane that is currently free. That makes it much 
easier to deal with the equity issue. Two of the projects, all 
of the toll revenues will be required for construction and 
operations of the lanes. On one there will be surplus revenues 
which is going to be put into bus transit, and that was a very 
important component of that project.
    We have looked at the potential for pricing existing lanes 
in certain choke point areas of the region. There are a number 
of locations where it is not possible to build new capacity and 
the key there is going to be provision of alternatives to those 
who are tolled.
    The rationale for tolling is easily explained: it is where 
the revenues are devoted and how various groups will be 
impacted. That is the issue. In London, which is a model we 
have been looking at, major investments in transit were the key 
to maintaining total person movement into the central area; 
they shifted people from driving to transit, and that is the 
kind of the model we have been looking at.
    Mr. DeFazio. But as the Committee found in our recent visit 
to London, before the cordon pricing, 85 percent of the people 
were using mass transit and the cost to park an automobile on a 
daily basis in downtown London was somewhere around $75 or $80 
U.S., which meant we aren't dealing with middle-class people 
commuting to work here, it is the guy with the chauffeur 
driving the Bentley, maybe, who is going to now wonder about 
whether or not he should be doing that. So there is an equity.
    Mr. Yaro, you also had a comment?
    Mr. Yaro. Yes, just three points. One, this year marks the 
fortieth anniversary in the New York metropolitan area of using 
essentially cross-subsidizing transit investments and 
maintaining our transit system from toll revenues, toll 
facilities through the Metropolitan Transportation Authority 
that was established by Governor Rockefeller to do that. As you 
know, we came very close this year in Albany to get a 
congestion pricing system in place; we didn't succeed.
    We have done a tremendous amount of analysis that I think 
has concluded that congestion tolling is actually a very 
progressive way of financing transit investments. You don't 
need the experience in London, the plans of New York; you don't 
need to wait years to make these investments. In fact, the most 
important investments in London were investments in new bus 
services, and that was what we have planned and are actually 
moving ahead with portions of in New York.
    I guess the final thought is just when you look at what our 
competitors are spending in metropolitan regions and mega-
regions around the world, these are the places that are 
beginning to knock our socks off economically. They are 
investing several times what we are as a percentage of GDP. We 
are going to have to find these revenues one way or another, 
and tolling and user fees may be something we have seen in our 
region and I think in other parts of the Country that in fact 
the public is ready for this and understands the connection 
between using a facility, paying a fee, and having those 
revenues be dedicated towards transportation expansion and 
transportation improvements.
    Mr. DeFazio. I would address this again to anyone who wants 
to respond, but several of you brought up this point, and since 
you just made that point. The current Transportation Secretary 
says we should freeze the current levels of Federal investment, 
which is essentially phase out Federal investment over time, 
ideally, in her mind, and just do everything with tolling and 
congestion pricing.
    But a number of you made the point that the tolling and 
congestion pricing, either as Mr. Kirby said, in two out of 
three cases it is just going to go for the project itself, and 
is not going to supplement the greater system. And I think you 
and others are making the point you may look at alternatives, 
they may be viable in certain areas, but the tolling and 
congestion pricing will still need more support, whether it is 
sales tax, gas tax, or other investments.
    Mr. Yaro. I think there is no question that this would be a 
contributor to a larger and much more robust set of public 
investments. I think there is room for private investments and 
new highway facilities, expanded highway capacity and so forth, 
but I think our conclusion has been--and we have been working 
on this in New York and New Jersey--that this is going to be a 
relatively small part of what is going to be needed. There is 
going to have to be a much more robust public investment. 
Simply relying on private investments or user fees and so 
forth, that sounds like the kind of Argentinean strategy for 
economic development. Do we really want to be like Argentina 
when we grow up? I don't think so.
    Mr. DeFazio. Mr. Sims.
    Mr. Sims. Thank you, Mr. Chairman. Variable tolling is one 
of our tools; it is not our exclusive tool. We like a tool kit, 
because we have used gas taxes in our region, we have used 
sales taxes in our region. We just look and say variable 
tolling is key for us as another tool to use for financing, 
particularly if we can couple it with expanded transit 
investments.
    Mr. DeFazio. Okay. Anybody else? Okay, Ms. Molitoris.
    Ms. Molitoris. I just want to comment on having the 
devolution of a Federal partnership. We are going to be 
looking, in fact, announcing this week, a 21st century 
transportation task force called by the governor and the 
director and the business plan, and it is really the people's 
task force; the department will support and enhance and so on. 
But there are really two questions: what kind of system do we 
really need to have, and how are we going to pay for it?
    I will wait to sort of report to you the results in 
September, but I cannot imagine that it is possible to do it 
without the Federal partnership. I think all the data shows 
that; certainly the Surface Transportation Policy Commission 
report shows it strongly. I think it is critical now and going 
forward that you are our partner.
    Mr. DeFazio. All right, thank you. Okay, quickly, Mr. 
Wiley.
    Mr. Wiley. Very quickly. I would absolutely agree, we 
cannot look to have the Federal Government eliminate their 
partnership. We need a toolbox and we need to grow the toolbox; 
we don't need to reduce the toolbox. We are looking for 
resources from many different avenues. In California and in our 
region, developer fees play a significant role, for example, in 
funding the capital investment, and we use those revenues from 
throughout the toolbox to match those Federal revenues so we 
are stretching those dollars as far as we possibly can. We 
don't want to reduce the pie; we need to grow the pie.
    Mr. DeFazio. Thank you.
    Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman.
    The National Surface Transportation Commission has reported 
that the average major highway project now takes about 13 
years, and we had a hearing a few months ago about either a 9-
or 12-mile project in California that started in 1990 and was 
hoped to be completed by 2007. I don't know if they actually 
completed it or not. We are hearing that in every aspect of 
this Committee. The main runway at the Atlanta Airport took 14 
years from conception to completion; it took only 99 
construction days. In water transportation projects, the 
Kentucky Lock authorized in 1996 was supposed to have been 
completed in 2008; now the completion date is 2014. The 
Homestead water project, the original cost estimate was $775 
million; now we are up to $2.1 billion on just that one 
project.
    What I am getting at is this: the other developed nations 
in the world are doing these projects two or three times faster 
than we are, and almost all of the delays seem to be on the 
environmental rules and regulations and red tape and paperwork 
that is not adding anything to the project except cost. We 
tried to put environmental streamlining provisions in the last 
highway bill, and I don't know if they are doing much good yet 
or not, but, Mr. Puentes, do you see any way that we can speed 
up those types of rules and regulations and delays, or do you 
even think we should?
    Mr. Puentes. I certainly do. Thank you, Ranking Member. I 
certainly do believe that we should. There is no question that 
we are having difficulty getting transportation projects built, 
good projects and otherwise, and the inflationary costs are 
driving up the costs of these projects. This is an untenable 
situation right now. I don't think there is any doubt about 
that.
    The question about what is responsible for the delay I 
think is a difficult question to answer. We do know that the 
environmental regulations certainly do impose some kind of 
extra process in there; whether it is delays or not, that is a 
question. I think that more to the point is that we see that 
the lack of coordination, the lack of real comprehension of 
what these projects are supposed to be doing is also 
responsible for a considerable amount of delays.
    The partnership that we just talked about between the 
Federal, State, local, metropolitan governments is not clear 
right now, so who is initiating these projects, where they are 
coming from, what plan they are adhering to, all these 
questions in some places are very difficult to determine. So 
when these projects get built--some are controversial, some are 
not--roadblocks get thrown up and the project delays take a 
number of years.
    Mr. Duncan. I guess the problem we are dealing with is 
this: if a project ends up costing three times more than it 
should, then that means you can only do one project, where you 
could have done three; and it makes for more fatalities, it 
makes for higher taxes and so forth.
    I don't have much time, so I am going to try and move on. 
Mr. Yaro, your testimony describes the current Federal highway 
enforcement and transportation planning process as giving 
States a blank check to build bridges. It says, ``giving States 
a blank check to build bridges to nowhere and highways that 
enable sprawl development.'' Do you mean by that do you favor a 
more top-down approach and do you think that the Federal 
transportation people are somehow more knowledgeable than the 
State or local transportation people? I wonder what you mean 
there.
    Mr. Yaro. Well, I think what I am getting at there is that 
in fact we would like to see responsibility devolved from--and 
you are talking about highways, but I think it is probably 
across the board that we have these array of siloed agencies in 
U.S. DOT. I think one of the things we are learning from our 
investigations of the way that our competitors around the world 
are doing these things is that, increasingly, they are breaking 
down the barriers between the funding silos and so forth and, 
increasingly, they are devolving responsibility to regions for 
decision-making about projects, but instituting return on 
investment outcome-based measures to do project selection. So 
it eliminates the--I shouldn't say eliminates, but it reduces 
the temptation for projects that might be showboat projects, as 
opposed to projects that might deliver real utility on the 
ground.
    Just a quick response also to your last thought about the 
delays of permitting. I think it is absolutely fundamental that 
we get our arms around this one, and I think it is not just 
environmental regulations, I think there should be ways to 
streamline those regulations, to streamline environmental 
reviews, but it is also procurement policies, it is the red 
tape of dealing with Federal agencies, and there has to be, 
again, more devolution of responsibility.
    I know when we built the 1 and 9 subways lines after 9/11, 
we went from a destroyed transportation system to a functioning 
one in less than a year because FTA fast-tracked the reviews 
that ordinarily take two or three years, but in that case there 
was a real focus on doing that. So we know we can do it in an 
emergency. We have to treat every one of these projects as an 
emergency.
    Mr. Duncan. Okay. Thank you very much.
    Executive Sims, I was fascinated by your statement in which 
you say that 78 percent of the people in King County favored 
tolling, because just a few days ago, as I was along in 
Knoxville, there is a husband and wife team that has a very 
popular radio talk show in our area, and they were talking--the 
Tennessee legislature is considering going to tolls, and we 
don't have any tolls anyplace in Tennessee as of yet--and they 
said that they thought 90 percent of the people were against 
tolls; and you have 78 percent in favor. Do you think that 
there is nationwide support for more tolling or do you think 
this is just sort of unique to your area and your people?
    Mr. Sims. Congressman Duncan, I think that what we are 
finding right now is that people are moving toward variable 
tolling. I have to clarify this. If you talk about just putting 
tolls on like you are doing an ATM machine, there isn't a lot 
of support; it will look like one more tax. If you are looking 
at variable tolling and you are looking at coupling that with 
what people call congestion relief improvements--whether that 
is transit, whether that is bridge repair--then you see that as 
the preferable method of financing those.
    So I think in our area we are pretty typical, I think, of 
many urban areas throughout the Country where people are 
looking at variable tolling as the preferable financing 
mechanism in lieu of tax increases. You can avoid a toll; you 
can never avoid a tax increase. When taxes are there, we are 
very good at collecting them, and we think that people want a 
choice.
    Mr. Duncan. All right, thank you.
    Ms. Molitoris, Mr. Puentes has said that the Transportation 
Department is doing too much funding based on consumption and 
it needs to go to newer ways of funding highway projects. Now, 
you testified that Ohio has a real interesting or unique mix of 
very large metropolitan areas and very small metropolitan 
areas. How do you go about making your funding decisions? I 
know you are new, but I know, even in the short time you have 
been there, you have studied the way the Department is 
operating. Are you going with traditional ways of funding or 
are you trying new innovative type approaches?
    Ms. Molitoris. Mr. Duncan, our 21st century transportation 
task force that will be announced this week is really all about 
the business of recreating the process. Right now we have a 
turnpike, which is our toll road, and we have the gas tax, and 
then we use the monies that are available to us from the 
Highway Trust Fund and other FTA and so on. But I personally, 
Mr. Duncan, think that this opportunity--that is why I am so 
excited to be back--this opportunity in the next authorization 
is to really, from the bottom up, recreate our process. I 
believe we can get some nimble kind of simultaneous processes 
going because we are suffering in Ohio from this tremendous 
added expense of very, very long processes, where there is 
duplicative things. In fact, I went to the district deputies in 
our State and I asked them what are the big things that are 
tough, and this whole consensus building that is the process 
that we are encouraged to do, we do it and then we are 
questioned about whether we really did it well enough.
    And that is this partnership that I really am urging the 
Committee and the Congress and all the partners and 
stakeholders to commit to, a partnership that gets things done, 
a partnership that is about thinking how does business do it, 
these opportunities for design/build/operate/finance. There is 
an improvement in timing. We can learn to do that. This is a 
partnership that can happen. I am looking forward to presenting 
to the Committee the results of our people's task force, 
because it is not the Department's.
    Mr. Duncan. I know we are dealing with very difficult 
problems. I mentioned in my opening statement that two-thirds 
of the counties are losing population. And it is not just the 
counties; I read recently that Detroit has gone from 2 million 
population a few years ago to 800,000 now, and a lot of the 
people that are left--you mentioned Cleveland, where you said 
one in four don't have access to an automobile.
    Ms. Molitoris. That's right.
    Mr. Duncan. Well, what you are left with in those rapidly 
declining population areas frequently are lower income people. 
So, can you justify increasing the funding to areas that are 
losing population, as opposed to giving to areas like mine that 
are just growing by leaps and bounds? In fact, all the people I 
represent wish I could put up walls and just keep anybody else 
out; it is just getting amazing.
    Anyway, I don't have----
    Ms. Molitoris. Can I just make one more comment?
    Mr. Duncan. Yes.
    Ms. Molitoris. If I may. The State of Ohio is still an 
agriculture State, and we have many, many rural areas, and we 
are as responsible for them as we are for the Columbus-Central 
Ohio area that is growing. So our answers have to be for all 
the people.
    Mr. Duncan. I have a couple questions for Mr. Wiley and Mr. 
Kirby, but I have gone way over my time, so I will just stop 
now and come back later.
    Mr. DeFazio. We will certainly give you an opportunity in 
the next round.
    We would go in the order in which people appeared on our 
side, so Mrs. Napolitano would be next.
    Mrs. Napolitano. Thank you, Mr. Chair, and I appreciate 
your holding this hearing because my area is a metropolitan 
area, the San Angeles County, southern California; it is one of 
the most congested, one of the most under-funded in terms of 
upgrade of transportation systems. And while I have heard a 
great deal of information from you and I agree with most of 
you, tolling won't work in my area, I am sorry. People are used 
to driving cars. We have a love affair with cars. We need to 
get those individuals off the cars or provide some mobility, 
because we have one of the largest parking lots in the sky, and 
that is Highway 5, Santa Ana Freeway.
    What I think I am hearing from you, especially Ms. 
Molitoris, is the excitement to see something evolve in this 
next TEA-LU and be able to put all the heads together, have 
interagency cooperation to cut the red tape. If we can do it in 
New York, we should be able to do it in every other State. But 
it is up to the agency. If the agencies were businesses, how 
would you want them to function? That is a question I have for 
you. Because, in the end, we can put all kinds of money into 
all these different programs, and even if we put new programs 
together, are we getting the others enough funding to be able 
to operate properly, to be able to help and prioritize, to be 
able to look at the growth States and still help the rural 
areas? All of those are questions that are in my mind.
    Over 40 to 50 percent of the Nation's goods travel through 
my whole district. I have 34 grade separations that are not 
being funded; 20 may be funded. That is going to cause a lot of 
grief in my communities not only for public safety, but 
pollution; and that is coming to the rest of the Country coming 
through my area. I have a great concern.
    But until we sit and be able to actually work together and 
be able to figure out--because it has to come from you and 
others like you, to tell us where the administration, where the 
agencies, DOT, all those silos that you mentioned, work 
together to be able to come up with a faster way of approving 
your projects and not second-guess what you, the ones that are 
at the bottom line, know needs to happen.
    Again, if you had a crystal ball, what would you have this 
next TEA-LU accomplish?
    Mr. Puentes. Thank you. I think that if it was run like a 
business, clearly, we would have a business plan. There should 
be a purpose for the National Surface Transportation Program, 
and I think that it is arguable that there isn't a clear 
purpose or vision for the program today. The program seems to 
be strangely adrift and out of touch with the needs of this 
Nation; not just Metro areas, but rural areas in general. The 
conversation around the transportation program, though, 
revolves almost exclusively around funding; the questions we 
have had addressed here today have been around funding. And I 
am not naive enough to think funding doesn't matter, but, 
again, back to your question, if it was a business, the last 
thing you would do to a business that was failing would be to 
keep pumping more funds into it. You would need to restructure, 
you would need to reassess, and you would need to find a new 
purpose for that business, and I think that analogy works very 
well for the program today.
    Mr. Yaro. I think your point about the critical role that 
Los Angeles and perhaps a dozen other global gateways across 
the Country play in the national economy, national mobility 
systems needs to be reflected in the next transportation act. 
It is very clear that if the Port of Los Angeles and the 
connections through your district aren't working, it is going 
to take a bite out of the national economy, a bite out of the 
national logistic system, and we can't allow that to happen; it 
will have repercussions through the entire Country.
    Now, I will add that the Port of New York and the 
concentration of seaports and airports around New York, the 
international gateways north of Seattle and the airports and 
seaports in Seattle and Tacoma and so forth, there are about a 
dozen of these places that are competing globally that are the 
key to the national transportation system. And this is a place 
going back to what Mr. Duncan asked earlier, about whether 
there needs to be a national framework or not. I believe that 
there does need to be a national framework, a prioritization of 
projects that really represent the keys to the whole national 
transportation system in which there needs to be a national 
plan, a business plan or a national plan and a prioritization 
of those investments.
    Then we need to push responsibility down to the regions to 
manage those projects. The second-guessing that goes on on the 
part of the Federal agencies of what ought to be the 
prerogatives of the authorities that build and operate these 
facilities, that is what we have to cut out.
    Mrs. Napolitano. I am running out of time, sir, so do you 
mind, Mr. Sims? Thank you very much. I agree with you.
    Mr. DeFazio. I thank the gentlelady, as usual, for her 
astute questions and her experience.
    I would turn now to the former Chairman of the Committee, 
Mr. Young, to see if he has questions.
    Mr. Young. Thank you, Mr. Chairman. I appreciate the 
mentions of TEA-LU. We tried in that bill to get some things 
done we were unable to do. One was projects of national 
significance, and that was a major project of the congested 
areas, because I believe this year we will spend $100 billion 
or more in congestion. It was $78 billion in 2005.
    That is a terrible waste, and we do have to address this 
issue and I do agree with the idea of having a model on how we 
address this issue because we have so many different people 
playing in this game. We have troubles within the State, Mr. 
Chairman, with the State Department of Transportation second-
guessing communities, which bothers me a great deal because it 
is in the capital and they do have the purse strings within the 
State even though the dollars we get, we earmark dollars and I 
am proud of that, but they sometimes run the earmarks if we 
don't solve this problem.
    And you may think what has Alaska got to do with this. 
Well, even in my State, the least populated State in the union, 
we have tremendous congestion problems in Anchorage right now--
huge--and it is going to get worse, and we have to do something 
about that. It is going up to 166 percent in 10 years and we 
recognize that within the community. We are trying to address 
it. We have some--you have heard about the bridges to nowhere. 
That was really a relieving a congestion problem. And I think 
each community should address that, bring this to the Congress 
and see if we can't address the major bottlenecks in this great 
Nation of ours and solve these problems.
    I just have one question. We are facing a different era of 
time. In your thinking, have you put into this equation the 
change in the way we are going to move in the next 10 years? 
Because I believe that is going to change. We will still have 
some of the things we have now, including these big mammoth 
cars, but has anyone thought about parking lots and highways 
and right-of-ways, et cetera, with a smaller vehicle, possibly, 
maybe running on different forms of fuel? Anybody crank that 
into your equations? Anybody want to address that? Mr. Sims, 
you are from Seattle; you ought to know.
    Mr. Sims. Congressman Young, yes, we have. We actually went 
to 2050 and have gone backwards. So instead of planning 
forward, we decided to say here is the world in 2050, and you 
are going to have different options, so you are going to have 
to have--you are going to have alternative fuel vehicles, you 
are going to have electric vehicles.
    So you are still going to have people in cars in many 
respects. You are going to have to have your light rail 
systems, very efficient bus rapid transit systems; you are 
going to have to have even more buses; you are going to have to 
have transit-oriented development. You are going to have 
ability to move freight, because that is still going to be the 
way that we see the benefits of commerce, and you are going to 
have to have very, very efficient movement of freight systems 
particularly when they are tied to ports.
    So we think you are going to see changes more in the 
technology side, but not on the basic movement of people. You 
will see more dense areas because that will be very, very 
efficient.
    The one thing that I have really got to say is that, at the 
local level, we don't sense that people--let me back up a 
little bit. The Federal agencies, I don't think, share our 
urgency at wishing to have mobility. My wife grew up in the 
Philippines, and I went to visit where she grew up, and I 
always say that the Philippine economy is burning up on its 
roadways. Our economy is beginning to burn up on our roadways 
and the kind of need to really declare an emergency so that the 
metropolitan areas can have their mobility, can move the 
commerce, I just think it is----
    Mr. Young. I appreciate your saying that, but I have to 
tell you that is because, very frankly, the bottleneck areas 
have not made their voices heard. And if you do that--I am 
going to be a little political here, Mr. Chairman. I haven't 
heard any of the presidential candidates talk about 
transportation congestion; solving the problem. Talk about 
energy, they are wasting the biggest part of this energy right 
now sitting still. I have been saying this for 10 years. And it 
is time that you start telling the public this is what has to 
be done and we should do it, and we will respond. But until 
that happens, we are going to sit here and twiddle our thumbs. 
This is the closest thing we have come to solving this problem 
today with this hearing, because no one is paying attention. 
You are because it affects you. But we ought to make this the 
number one issue. This and energy in this Country should be the 
number one issues because the two are tied together. Our 
economy is based on the ability to move product and move goods 
to and from, and we can't do that when we are congested. So I 
compliment all of you for bringing this to the forefront. If we 
can get something out of this Committee, if any one thing, 
let's make this the number one issue, solving this congestion 
problem for the good of the Country.
    Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the former Chairman for his remarks. I 
too am disappointed at the lack of robust discussion by the 
presidential candidates, and hopefully we can engender some of 
that as we move toward the fall. Certainly we congratulate the 
gentleman for his past efforts to shine a light on this and 
enhance the funding, which, of course, although we approached 
that on a bipartisan basis, was shot down by the current 
Administration.
    With that, we will turn next to Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Chairman, and thank you very 
much for holding this hearing today.
    First of all, I would like to welcome Mike Wiley to our 
panel today. Mike has just recently been promoted to be our 
General Manager at Regional Transit. The interesting thing 
about Mike is he is homegrown and he has been in Regional 
Transit for 30 years, so he has seen all the challenges along 
the way and now has a chance to really look ahead to really 
kind of implement his vision.
    We are expanding and Sacramento is sort of a test case of 
what we are trying to do here, I hope, in the rest of the 
Country with a lot of light rail. We saw this 20, 30 years ago. 
We have a golden opportunity to do things right and I am 
looking forward to working with the Committee to ensure that we 
truly capture the benefits of transit.
    To that end, Mike, in your 30 years at Regional Transit, in 
your opinion, have you seen a change in the perception of 
transit from the MPO and DOT perspective? Also, how does the 
recent Sacramento Area Council of Governments' recently 
approved MTP, the new transit plan for 2035, play into that 
perception?
    Mr. Wiley. Well, thank you very much, Congresswoman Matsui, 
for your kind remarks. There has been a tremendous change in 
how we collectively view transit within our State DOT, within 
our local MPO, and within our region. I talk to people often, 
individual citizens throughout Sacramento, and the number one 
complaint or criticism that I receive about public transit is 
when are you going to build a light rail system, a light rail 
line to my area? When are you going to get that line to the 
airport? When are you going to get south? It is not a criticism 
of how we operate or what we do, it's would you hurry up and 
get it done sooner.
    We have recently adopted a new MTP that is a visionary 
document that is tied to our Blueprint land-use vision. Every 
jurisdiction in our region is going through a process of 
updating their local general plans to reflect this new 50-year 
land-use vision for development, and we are really talking 
about massive change in how we grow and develop. We are looking 
at growing and developing in a smart manner, not in a leapfrog 
typical pattern that we are used to. We found that, in all the 
analysis we have done, this new higher density, smart growth 
development tied to extensive expansion of public transit 
reduces total trips per household, it cuts it in half. People 
will walk more, they will bike more, they will use public 
transit. They reduce their dependency on the automobile 
tremendously. You talk about reducing congestion. That is a 
tremendous way to reduce congestion. We don't have to build 
these massive freeways if we look at how we develop and grow.
    And that is what we are doing locally in Sacramento, we are 
matching our updated transit master plan with the MTP and this 
new land-use vision for the greater Sacramento area. And it is 
not just within Sacramento County; it is throughout the region.
    Ms. Matsui. And I understand it is a six-county region, 
too, so it is a whole region that we are talking about. I know 
that you have also had some success in providing transit 
options for students as a way of getting more people involved. 
Can you expand on the partnership between transit and higher 
education in Sacramento?
    Mr. Wiley. Certainly. We have a tremendous relationship 
with our local community college system, Los Rios Community 
College district, as well as the State university; we have a 
campus in Sacramento called California State University-
Sacramento. Both of those institutions' student bodies have 
assessed themselves, they voted to tax themselves, if you will, 
through their student body registration fees to provide access 
universally to all students that are registered students to our 
entire system. They pay through their registration fees an 
increased fee to provide access to 100 percent of the student 
bodies. So they have unlimited use of our system, both bus and 
rail, throughout our service area. Most recently, Los Rios 
Community College students actually passed a 10-year measure 
that keeps that provision in place for the next 10 years. 
Consequently, Los Rios Community College has updated their 
master plan such that all future campuses will be built at 
existing or future planned light rail stations.
    Ms. Matsui. Thank you very much.
    And thank you, Mr. Chairman. I yield back.
    Mr. DeFazio. I thank the gentlelady.
    Mrs. Schmidt?
    Mrs. Schmidt. Thank you, Mr. Chairman, for holding this 
hearing.
    And thank you, panel, for coming. I am going to direct my 
question to Ms. Molitoris, not only because she comes from the 
great State of Ohio, but because she hit on something that I 
have a direct experience with.
    In your testimony--and I read it--you talked about the fact 
that we micro manage up here and sometimes drive up costs. When 
you have your panel back home, I would suggest that you look at 
the Fog Road issue in Pike County as a direct example of 
Federal overreach. My predecessor, Rob Portman, got the money 
for the Fog Road expansion, but it was tied up. By the time I 
got here, it was tied up with a Federal bureaucracy that would 
have made the cost twice what the original estimate was. What 
we did, working through the Ohio Department of Transportation 
and the county engineer in the respective counties, was to get 
that money into the hands of the State of Ohio, and the project 
manager assured us, because it was local, that it would be done 
on time and that we would open that on Thanksgiving, and the 
day after Thanksgiving we ribbon-cut and we drove that road. So 
it is an excellent example of how we can give you the money and 
let the State of Ohio, which might be a little bit more 
efficient because it is more local, handle it in the best and 
appropriate manner. So I would suggest that you use that as an 
example with your working group.
    Ms. Molitoris. Thank you, Congresswoman Schmidt. I 
appreciate it. I don't know about it, but I certainly will 
learn about it. But I think that there is another point to 
weave into this. When you read the policy commission report, 
for example, and you think about how do we get from where we 
are to where we want to be--and I don't know if 108 to 110 is 
the right number for the kind of programmatic organizational 
structure we would have, but there is an issue of culture.
    It has been since Eisenhower that all of these things have 
developed, and I think the fine people who work at the 
Department of Transportation here in Washington, at the State 
levels, they can learn a new way, but we have to give them the 
opportunity to learn from the best. So I think it needs to be a 
part of the answer.
    Mrs. Schmidt. I couldn't agree with you more, and I wish 
you well on your working group.
    Ms. Molitoris. Thank you so much.
    Mr. DeFazio. We will now go to Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman. First of all, I 
would like to thank the Chairman and also Mr. Duncan for 
conducting this hearing. I, like my friend here from Southern 
California, Representative Grace Napolitano, can attest to the 
fact that there is no greater concern that we have from an 
infrastructure perspective than the congestion and the traffic 
delays that we experience in Los Angeles County. As stated 
earlier, the Texas A&M study concluded that Los Angeles, in 
fact, has the Nation's longest delays for commuters, with an 
average of 56 hours a year on the highway. So that is the 
framework of my questions that I have for you.
    Number one, Mr. Sims, would you mind providing this 
Committee a copy of that study that you did? I thought you 
called it Race Inequity or something like that. If you could 
provide this Committee a copy.
    And I would like to build upon the comments of what our 
Chairman said, as well as Ms. Napolitano, regarding your 
variable tolling idea. In your statement you say that it would 
be less burdensome to low-income residents, and that is on page 
6 of 7 of your comments. I would like to also further drive 
home the point of I really don't understand the connection, and 
let me tell you why. In my district, I would say that lower 
income constituents have to typically drive more and drive a 
further distance, as well as more often, several times in a 
day. A lower income constituent in my area might be a gardener, 
might be a plumber, might be someone who has several accounts 
of where they are going to, versus someone who is driving from 
their home to downtown Los Angeles; and I think a lower income 
individual has less flexibility in terms of the hours that they 
work.
    So when you talk about variable pricing, it might be one 
thing to say, oh, give us options, but usually a person of a 
lower income doesn't have the type of job where they can go in 
and tell their supervisor, okay, I want to work from 10 to 6 
instead of 9 to 5. Usually, that person is lucky to have a job, 
period, let alone to determine some sort of flexibility in 
hours that they might greater take advantage of your 
presentation of variable tolling. So I just wanted to hear more 
from you of why you really think that this is beneficial to 
lower income constituents.
    And I would further say an example in Los Angeles that we 
had in California, if someone purchased a Prius, a hybrid 
Toyota vehicle, or any--I think it was-hybrid and had the 
decals on their car, they could then, even if they were a 
single driver, due to the less emissions that they were doing, 
could go through the car pool lanes. Well, I can tell you there 
were not low-income individuals who were buying Priuses and 
Toyota Camrys, et cetera, because those cars cost more on the 
front end. So things where your analogy is saying would be 
beneficial for lower income constituents, what I have heard 
from my colleagues is completely the opposite. So I wanted to 
push a little further to get your thoughts on that point.
    Mr. Sims. Congresswoman, I will get that report to you on 
race and poverty in King County, which was a very sobering 
report for us. But what we found is that variable tolling 
actually reduces what we call traffic volume normally about 15 
to 20 percent, and the reason why that was so critical for us, 
because time was very, very important in the lives of low-
income people. So if you look at the existing system we have 
today, you basically tell poor people that you have a limited 
job range. Variable tolling, because it increases the 
efficiency of a roadway and reduces traffic, actually extends 
that job range. So in our county, for instance, if you are low-
income or poor, your access to the higher paying opportunities 
or more moderate paying opportunities on the east side of our 
county are far more limited, so our issue is are we going to 
continue to have a system that right now confines mobility and 
limits the ability of low-income people to access to jobs, or 
are we going to actually strike out and change that; and we 
believe that variable tolling, because it creates efficiencies 
on the roadways and reduces traffic volume and, therefore, 
increases speed, provides an opportunity for people to access 
jobs that are right now denied them.
    If you look at the sub-prime failures that have occurred, 
you find a lot of low-income people moving to the edge cities 
because they were assuming that moving out to the edge they 
would have greater access to those jobs that previously had 
been foreclosed to them by the existing system of 
transportation in this Country.
    We had a program where we had a call center on the east 
side; it paid very, very well. We were bussing people there out 
of a very poor area through our Metro transit system. The 
program worked for 60 days because we couldn't deal with one 
issue: the traffic volume was so significant that we couldn't 
get people back to child care by 6:00, which was key, and their 
employer was not providing it. So, to us, variable tolling 
lessens traffic and, therefore, extends the reach of employment 
opportunities and housing opportunities that are right now 
foreclosed to poor people.
    Ms. Richardson. Okay.
    Mr. Chairman, my time has now expired. I would just suggest 
that we get a very balanced, at some point, have a discussion 
about this whole congestion pricing idea.
    I hear what you are saying, sir, but on the flip side what 
I would say is even if the congestion on the highway is then 
thereby reduced because other people are taking advantage of 
this variable tolling, that lower income person then still has 
to pay that higher rate to travel on that particular highway, 
and that is the point of question that we have here. And that 
is our concern, is ensuring that everyone has the ability to, 
in an equitable fashion, travel. And if a person has to pay 
more, then that is where the issue of constituents' access 
really comes in. But I look forward to further discussions.
    Thank you, Mr. Chairman.
    Mr. DeFazio. I think the gentlelady's questions are very 
thoughtful, very well put, and I share a number of concerns she 
has raised. I am intrigued by Mr. Sims' response in the Seattle 
case. But this certainly does merit more scrutiny. The 
Administration has been very cavalier about this and we did, 
prior to your election, delve into this issue a bit, but I 
believe it warrants more focus and discussion and understanding 
for the full implications, so I thank you for that particular 
line of questioning.
    We will now go to Mr. Baird.
    Mr. Baird. I thank the Chair.
    I want to particularly welcome County Executive Sims, who 
is not only a leader on transportation issues, but health care 
as well. It is good to see you again, Ron. In your testimony, 
Mr. Sims, you raise the issue of a holistic approach, and 
others have talked about this. And you alluded in one of your 
comments to a sense that the Federal Government doesn't have 
the sense of urgency about the congestion problem. I have that 
sense of urgency, but I will tell you that, as a lawmaker, the 
experience tends to be this: counties, municipalities expand 
either in their industry or residential zones, and then come to 
us post-hoc and say can you give us money to relieve the 
congestion that our development has created; that there is not 
in fact a holistic effort in general where people say, look, if 
this many people are going to move here, we are going to need X 
amount of dollars to transport them and they will end up 
flowing into the broader down-river transportation streams.
    So I would ask all the panelists, how do we get there? I 
have tried unsuccessfully to initiate this in my county and it 
was one of these games where everybody was pointing fingers and 
saying, well, so and so is taking care of it, so and so is 
taking care of it, et cetera But I will tell you, at a time 
when we are being beaten up for earmarks on the one hand and 
asked for earmarks at every turn on the other hand--and the 
earmarks are usually behind the wave, not in front of the 
wave--I would welcome any thoughts about how we can do that and 
how that can be incorporated in our next transportation bill.
    And I will start with Executive Sims, but after that I 
would welcome any other comments.
    Mr. Sims. If I had my dreams, I would--the Federal 
Government has a series of siloed pots of money, and it would 
be so nice for that money to be given without all those silos, 
more in terms of a block grant, allowing the region to figure 
out how it wishes to distribute and how to invest, and in what 
order to do that. Right now, sometimes we believe that even 
within those silos, they don't talk to each other, so we wish 
that they did.
    But our experience has been that technology money stays on 
this side and they have their formulas, and then you have the 
roads money, then you have your various pots of transit money. 
I would just love to see it given in one single block grant, 
without all of the strings, without all of the conditions, 
allowing us to say these are the investments we are going to 
make for our mobility.
    Mr. Baird. There is merit to that, but how would that 
address the other issue I talked about, in terms of sprawl and 
management? Mr. Yaro?
    Mr. Yaro. Well, here is a choice. In much the same way that 
the Congress created a modest incentive for States to adopt a 
national drinking age or a national seatbelt law, why not say 
that 1 percent, or something like that, of Federal 
transportation dollars will be added or withheld from regions 
that--let's say added for regions that have coordinated land-
use and development strategies on the one hand and 
transportation strategies on the other? And we know from the 
experience with seatbelt laws and the national drinking age 
that a very modest incentive could in fact achieve that desired 
result.
    Mr. Baird. Or perhaps grant the flexibility that Mr. Sims 
has alluded to as the reward for this for. In other words, 
maybe not adding extra money, but saying we will give you more 
flexibility if you incorporate this.
    Mr. Yaro. That would work as well.
    Mr. Wiley. Mr. Baird, let me give you a specific example 
that we have implemented in Sacramento. In 2004, we renewed our 
local sales tax for transportation improvements. However, tied 
to that is a requirement that all jurisdictions, in order to 
participate in receipt of those funds, must have a specific 
developer fee in place to help fund those improvements as well. 
If they don't have the developer fee in place that help 
mitigate the impacts that they are creating to the system, they 
don't get access to that local sales tax at all. So there is a 
tremendous incentive for the jurisdictions and every 
jurisdiction is stepping up to the plate to renew their 
developer fees specifically for those transportation 
improvements.
    Mr. Baird. How did you pull that off? Because any mention 
of development fees back home raises an enormous firestorm 
politically.
    Mr. Wiley. Well, I guess locally we know that, as you 
indicated, growth and new development has a tremendous impact 
on the existing system, and that we need to make improvements 
to the existing system not just to extend to those areas that 
might be in new growth areas, but also to make improvements to 
the existing system to expand the existing system to handle 
that additional growth. So it is something that we have built 
up over the years in terms of increasing the knowledge and 
awareness of the impacts that that development has. So we have 
as a requirement that they must in fact have developer fees in 
place, so they are paying their fair share. They are not paying 
100 percent of the cost of the improvements, but they are 
paying their fair share because we know that existing 
development and existing users take advantage of that enhanced 
system as well.
    Mr. Sims. If I may, Congressman Baird, talk about what Mr. 
Yaro was talking about. In King County, we have actually 
combined our transportation system as a part of our 
comprehensive strategies on land use, on health, on carbon 
reductions. So you end up having to constrain your growth. So 
you are going to have people move, but our idea is to reduce 
sprawl.
    I was asked to speak to the CDC in Atlanta, Georgia two 
weeks ago, and I pointed out to them the greatest threat to 
public health care in the United States today is sprawl and our 
transportation systems, so what we try to do is calibrate them 
based upon public health issues as well as carbon reduction 
issues.
    Mr. Baird. Thank you.
    Mr. Kirby?
    Mr. Kirby. In the Washington region we have already a very 
extensive Metrorail system, the best in the Country, I would 
say, a very extensive commuter rail system. One of our main 
priorities of the MPO process is to encourage the right kind of 
development around the stations in that system, and we have a 
planning incentive program, Transportation Land-Use Connections 
(TLC), where we provide technical assistance to support local 
planners in getting the right kind of development. You don't 
want a Home Depot next to a big Metrorail station, and a lot of 
the action is really working at the local level, local planners 
and landowners and so forth. And if we could follow up that 
planning assistance with some funding for projects, which 
sometimes are not that expensive--street lighting, sidewalk 
support and so forth--we could incentivize those kinds of 
projects. We are looking out to 2030 and we see a lot of our 
rail stations with relatively little development forecast 
around them, rail stations that are there now. So that is 
really a major priority for us.
    Mr. Baird. Thank you.
    Mr. Puentes. Thank you, Mr. Baird. I am pleased to go last.
    Mr. Baird. Very briefly, yes. Go ahead.
    Mr. Puentes. Just to reinforce the point that what you have 
heard here are excellent examples of the innovation that is 
happening in metropolitan areas all across the Country. As we 
move to authorization to the next bill, we need to recognize 
that there are places where the Federal Government should lead 
some of these broad, national goals and there are a lot of 
places, where you just heard, where we should get out of the 
way, quite frankly, and let these metropolitan areas innovate 
and provide some kind of grants incentives so they can do these 
right things--break down the modal silos, break down the 
funding silos that prevent these things from happening--but 
allow a lot of these innovations you have heard here to 
flourish. There is so much going on across the Country to deal 
with some of these questions that we should let metropolitan 
areas do them.
    Mr. Baird. I thank the Chair for any indulgence.
    I thank the witnesses.
    Mr. DeFazio. Mr. Boozman?
    Mr. Boozman. Thank you, Mr. Chairman. Just very briefly.
    I think you, Mr. Sims, were you the one that was talking 
about the tolling? Okay. When you did the tolling, was that 
based on new roads or tolling old roads, or both? New 
construction versus putting tolls on roads that were already 
there? Did you break that down?
    Mr. Sims. Congressman Boozman, it was the replacement of a 
major bridge, the I-520 bridge, so it was tolling on an 
existing bridge now for purposes of being able to generate the 
capacity to replace it in the future, along with the use of gas 
tax. It also was a public transportation enhancement as well.
    Mr. Boozman. I would be surprised. I really shared the same 
apprehension that Mr. Duncan had, as far as Arkansas doesn't do 
tolling now, and we are looking at possibly tolling perhaps the 
first area in the State. But I would think that--again, I am a 
person that feels like giving you all the ability to toll new 
roads is a good thing. I have a lot of concern about tolling 
roads that are already in use.
    Mr. Puentes, you mentioned about a strategic transportation 
plan. How would you prioritize projects? Somebody mentioned 
outcome-based things. Do you have any other ideas as to how you 
prioritize what projects the Federal Government should be 
involved in?
    Mr. Puentes. Thank you. I think that there should be some 
prioritization based spatially. We know that these metropolitan 
areas, metropolitan engines really are the driver force to the 
Nation's economic, environmental, and social health today, and 
we have ignored them for too long. So I think there needs to be 
some kind of reorientation that recognizes how profound these 
places are for the national economy. So it matters that the 
Port of LA-Long Beach, it matters to Arkansas that these places 
are functioning. It matters to the Nation broadly that some of 
these gateways and hubs are functioning. So I think there needs 
to be a very frank, rigorous, and clear debate about which 
places matter disproportionately, quite frankly, to the 
American economy. We should invest in those places.
    When it comes to projects, I think that it is the way that 
you phrased the question. It is not about the projects 
themselves, but about the outcomes, and what kind of 
performance we want and what we want the system to look like. 
So backing into it from a project focus or framework I think is 
the wrong approach. I think we need to figure out what we want 
the system to do and then figure out which projects are going 
to get us there. This is the whole idea about being modally 
agnostic and just choosing the right mix of projects and modes 
that will get us to these certain objectives.
    At this point, I am not agnostic, but what those outcomes 
are, but I would like to see that debate happen here in these 
halls, in the leadership of this Committee, about what the 
national priorities should be and how we structure the program 
to get to those priorities.
    Mr. Boozman. Very good. I agree.
    I think most of the people on the Committee on 
Transportation push hard to get as much funding as we can in 
the system, and I think that most Members of Congress are very 
friendly towards transportation spending on our infrastructure. 
The reality is, though, hopefully we can get some more money, 
but I was visiting with Dan Flowers, our head of transportation 
in Arkansas, and he was saying that in the last 15 years he has 
lost 65 percent of his purchasing power. So even if we get 
significant funding back into the stream, it is going to be 
difficult just to keep up. So I would really encourage you 
all--and you have given us some good ideas today, and I hope 
you will continue to do that, because the funding issue, 
regardless of our commitment, is just a major problem. So, 
again, I appreciate your testimony, it was very helpful. Thank 
you.
    Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the gentleman.
    Mr. Arcuri.
    Mr. Arcuri. Thank you, Mr. Chairman, for conducting this 
hearing, and thank you to the panelists for being here.
    I have a concern that I would like to bring up, and I hear 
it sometimes throughout my district, which is rural, and I 
would call it--I am not sure if it is an urban legend. I don't 
want to call it an urban legend; I will call it a rural legend 
because it is really out in the rural areas more than anything 
else--and that is this: that as the tolls on the New York State 
thruway continue to rise, that more and more truckers and more 
and more drivers use local roads, and as they use local roads 
they put more and more stress on the local roads. And my 
concern is that as we raise tolls and as we have this 
congestion pricing, are we then going to have--is this going to 
be counterproductive, because are we going to have really just 
people using local roads and abusing roads that aren't intended 
for the kind of traffic that will result in it? I just would 
like your thoughts on that. Yes, sir.
    Mr. Kirby. We just completed a study looking at impacts 
around the Washington region and potential tolling, and one of 
the major lessons was that this is very location-specific, the 
impacts, and you have to look at not only the people that are 
going to be affected by the tolls, but the ones you mentioned 
that will be affected by diverted traffic. And rather than 
focus on the efficiency arguments, we looked at a report which 
I would commend to everyone interested in congestion pricing. 
It was written in 1964. It is called The Theory of Congestion 
Pricing: The Tolled, The Untolled, and the Tolled-Off.
    And the entire article is devoted to tracking through the 
distributional effects of tolling projects, and it deals with 
spillover traffic on other roadways and it deals with 
alternatives to those that are affected, and it is a lot more 
complicated, cost-benefit analysis than is often presented when 
you really dig into it. And their conclusion is these sorts of 
projects have to be looked at in the context of the community 
fabric, the local conditions, all of those things. This is not 
a kind of a theoretical silver bullet that you can apply 
everywhere.
    And we don't have any examples in the United States right 
now of putting a toll on an existing roadway, and there is a 
good reason for that: it is pretty hard to do. Very few places 
around the world have done it just because of these reasons; 
the impacts are so complex that it is very hard to go around 
and compensate all the losers, potential losers. Very difficult 
to do.
    Mr. Arcuri. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the gentleman.
    And that is an interesting study that we will have to--I am 
not familiar with that--follow up on.
    Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman, and thank you, members 
of the panel. I apologize for not being here for all of your 
testimony, but this is a major concern of mine and I am 
grateful for our Chairman Oberstar for creating a real vision 
for the new authorization of some $500 billion, and I think 
that probably might not adequately meet all the needs, but it 
certainly will address more of the concerns than we have had in 
any other authorization bill.
    My question is--or my general observation is, and I will 
just open it up to all the members of the panel for whatever 
conversation you might have--not since 1954 have we had a 
vision for expanding the interstate system. Since then, there 
has been a great population shift from the northeast to the 
south and to the coast. It seems everybody wants to live within 
50 miles of the ocean, or at least come visit, which puts a 
tremendous burden on the infrastructure of those regions. With 
that said, do you agree with me we should take a new look at 
our interstate system? I believe we should create new corridors 
to address this new shift of population and find funding to 
make it happen.
    Mr. Puentes. Thank you, Mr. Brown. I think that one of the 
prime purposes of the Federal program in its next iteration 
should be the preservation and the maintenance of this 
tremendous asset that we have built. That was the result, 
frankly, as we pointed out, of general consensus 50 years ago. 
We had a vision, we had a purpose. The interstates were not 
particularly controversial, as I understand. We went out, we 
have done it, we built it, and we have what we have today. I 
think that whatever the iteration is of the next bill, the next 
law, preservation and maintenance of the existing system should 
be a fundamental role for the Federal Government. So there are 
certain areas where only the Federal Government should lead, 
and that is one area in particular.
    I think that your point is well taken, that this Country is 
going to grow by 120 million people very quickly. I don't think 
that this Nation is equipped to handle the next 20 million, no 
less 120 million. So understanding where those growth patterns 
are occurring--and we know the south and the southwest in 
particular are places where we are going to need to accommodate 
a lot of growth in this Country and other places, quite 
frankly, are not. So how the interstate system plays out in 
that larger growth scheme is something we need to have a very 
frank and rigorous discussion about.
    Mr. Yaro. I would just add that I think we are going to 
need new capacity in all of these systems. We will need new 
capacity on the interstate system. But one of the things we 
have learned, I think, in a number of places is that we can't 
simply add capacity and build our way out of this problem. My 
favorite example is the Katy Freeway. What are we up to, 16 
lanes on the Katy Freeway? And it is still tied up in knots. 
So, in fact, we are going to have some more creative solutions. 
It is going to have to be a mix of modes.
    And I think the point you are hearing from everybody today 
is that within the metropolitan regions it is not Federal 
bureaucrats who are going to make those decisions, it needs to 
be people who are on the ground, in fact, who can coordinate 
the land-use and development patterns and the transportation 
investment so that we really do give people choice and we 
really do create the capacity that is needed in all of these 
systems.
    Mr. Brown. And that is exactly my sentiment. I think that 
we just can't continue to keep adding lanes; I think we have to 
find alternative routes and even alternative means of 
transportation, to be quite honest. Thank you.
    I still have another minute. Anybody else have any other 
comments? Okay.
    Mr. Yaro. I have one last thought, and that is that in New 
York we have added a million residents in New York over the 
last 20 years. We are expecting another million over the next 
20 years. We looked at alternatives of getting people in and 
around the city and from the north we looked at two 
alternatives, and one of them was a transit alternative: 2nd 
Avenue subway that will carry over a million passengers a day 
when it is completed; now under construction.
    The alternative was 26 new lanes of limited access highway. 
And I think everybody looked at that and said we are probably 
not going to squeeze 26 new lanes into the lovely island of 
Manhattan. So transit can provide that capacity and, again, 
there are plenty of places where there needs to be new roadway 
capacity as well.
    Mr. DeFazio. I think Mr. Kirby had also a comment.
    Mr. Kirby. If I could make one brief comment. In the 
Washington region, must of the congestion on the interstate 
highway system is due to local development and local traffic. 
The Capital Beltway in Northern Virginia, Tysons Corner area is 
a very good example, and I remember vividly at one meeting a 
local planner saying the problem with the Capital Beltway is 
there is too much interstate traffic on it, and I think that is 
a part of the issue. And you cannot address the interstate 
congestion problem in metropolitan areas without dealing with 
the land development problem, and there is a tension there 
between local decision-making in State and Federal decision-
making, which really has to be addressed.
    Mr. DeFazio. Thank you.
    I turn now to the Chairman of the Full Committee, Mr. 
Oberstar.
    Mr. Oberstar. Thank you very much, Mr. Chairman. And, Mr. 
Duncan, thank you for your steadfast participation in these 
hearings. And for our colleagues, both sides of the aisle, we 
have had very thoughtful observations today. Mr. Boozman, I 
appreciated your observations. Mr. Brown, I concur with your 
thoughts about new thinking, new development, new ideas. That 
is the purpose of these hearings, all through last year and all 
through the balance of this year, as the Subcommittee reviews 
existing law, SAFETEA-LU, and reviews the implications of and 
the recommendations of the National Transportation Policy and 
Revenue Study Commission.
    We have a very distinguished panel here today. I 
particularly welcome Ms. Molitoris, whom I knew when she was 
the head of the Federal Railroad Administration and imposed a 
culture of safety on Federal Railroad Administration and the 
railroads, a culture that we are now trying to inculcate into 
the FAA.
    And the subject of today's hearing brings together these 
distinguished panelists on the challenges of transportation in 
metropolitan areas. The Commission's report set forth some 
facts that we know, but just restating it was important: that 
60 percent of the value of all goods and services in the United 
States are generated in urban areas; 85 percent of the Nation's 
market share of critical transportation infrastructure exists 
in Metro areas; and it is these metropolitan areas that face 
the most complex and vexing transportation challenges--aging 
infrastructure, the need for investment to update and upgrade 
our portfolio of facilities built decades and decades ago, more 
congestion, environmental compliance requirements, air quality 
needs, planning for transportation projects in a coordinated 
way.
    And as was just said, the diverse needs, and even into 
signage. Do you put the signs up to accommodate the long 
distance travelers using the interstate system to get through 
your local area, to his or her ultimate destination, or do you 
sign for local residents who really know where they are going 
but they need just a little better signage? Those are big 
challenges.
    And we haven't talked much, although I have been in and out 
of the hearing today, but I read the testimony ahead of time, 
about land-use planning and housing needs and economic 
development initiatives that have to be a part of the overall 
transportation plans.
    Now, Mr. Sims I have known as Executive of King County and 
the work that he has done there, he pays attention. Each of you 
has had to deal with these issues in varying degrees. That is 
where we have to go in this next transportation legislation.
    Now, I want to make some observations and read from a very 
intriguing text: ``For more than half a century, the context in 
which public transportation operated was increasing 
suburbanization called sprawl, driven in part by government 
policies and in part by human desire for space, privacy, 
safety, and more and more people moved out of cities and towns 
into suburbs. There they lived in single-family homes on lots 
large enough for the children to play on. Low-density 
population. They shopped in centers miles from their homes; 
schools well beyond walking distance. They worked even further 
away. And most Americans live that way today.
    As conservatives, we do not join the left in condemning 
suburbs. We understand why people want to live in them; they 
are good places to have children, raise a family. Most American 
families will want to continue to live in suburbs. But over the 
past decades, two important counter-trends have developed, 
trends that provide a new context for bringing back streetcars.
    Quoting the mayor of Milwaukee, John Norquist, said, for 
years I advocated in my community a light rail project and 
people said, no way, what do we want to do with that. But then 
when I said let's bring back the streetcar, everybody said, I 
am all for streetcars. Change the wording, change the name, 
change the image and you change people's attitudes.
    The most important development and trend of current times--
in this report that I am reading from--is the recovery and 
restoration of city centers. Why? Because even when people live 
in suburbs, they want a physical center to their lives that 
offers more than a shopping center can. That is what 
metropolitan areas offer. Those are the opportunities.''
    This document I am reading from is entitled A Conservative 
Vision of Tomorrow's Urban Transportation by Paul Weyrich of 
the Free Congress Foundation. A new urban view, a refreshing 
look at America's past that we need to bring back to America's 
present and future.
    So, as we go through this hearing and to the thoughts that 
each of you has presented, that our Committee Members have 
reflected on, we have to look at these alternative 
transportation initiatives in addition to roadways as, as Mr. 
Brown said just a moment ago and as was cited from the witness 
table, are you going to build 12 lanes of freeway or one lane 
of rail?
    Just a week or so ago I was in Hawaii for a conference on 
China, but took the opportunity to visit with the mayor of 
Honolulu and our Committee colleague, Ms. Hirono, on Honolulu's 
light rail--it is called a streetcar--project. Forty-two miles 
in an area that is growing at--well, expects to add 50 percent 
more population than they have today. They have a narrow 
corridor. They have mountain on one side and ocean on the 
other, and nowhere to go. You can't add more lane miles. Trip 
times have increased 20 to 30 minutes in the last 10 years. 
They have the highest parking fees of any metropolitan area in 
the Country. That is pretty hard to do when Minneapolis-St. 
Paul has probably the first or second highest. People in the 
Minneapolis-St. Paul Metro area are spending $2 billion a year 
just to park their cars. Why not keep the car out of the center 
city and use the light rail? Well, they finally have a light 
rail, 20 years later than they should have.
    But here is Honolulu planning a 20-foot elevated light rail 
that will avoid grade crossings, that will accelerate movement 
of people throughout this whole urban corridor. They can't 
build more lane miles of roadway, as the panel has suggested. 
They have taken upon themselves the initiative to tax 
themselves, provide a dedicated revenue stream out into the 
future for building the facility and assuring its operating 
costs, and what they need is the partnership with the Federal 
Government.
    What has to happen in metropolitan areas is increased 
intergovernmental relationship--city, counties, State 
government, Federal Government--all working together and then 
developing your plan, your vision for integrated transportation 
systems that must include light rail, streetcars, commuter 
rail, whatever you want to call it, in order to move the 
greatest number of people most efficiently, the least impact on 
quality of life and, in fact, benefitting air quality.
    I think the vision set forth in the Bring Back the 
Streetcars document from the Free Congress Foundation is an 
instructive road map for the future and an incentive for us to 
move vigorously ahead.
    The challenge that I think we face is what should be the 
degree of pass-through of Federal funds to metropolitan 
planning organizations and what should be the degree of 
dependence upon the State to use the funds and allocate, and 
what are the conditions precedent to a pass-through. You are 
all practitioners of the art. I want your thoughts about this.
    Mr. Sims, I am going to start with you, since everyone else 
is reluctant. They are all sitting back praying. Come on.
    Mr. Sims. For metropolitan areas, if we are going to look 
at a fully integrated transportation system, the MPOs and our 
interface with the State would be important. For instance, 
Puget Sound differs from Spokane, where I grew up, which is a 
smaller community, or differs from Clark County. So the ability 
to have an integrated approach that is locally bought off and 
implemented, free of the Federal silos, would be very, very 
good for us.
    And you can condition that; you can say, these have to 
reflect reduction of carbon emissions; these have to reflect 
land-use decisions; they have to reflect health decisions. But 
it would be nice if it was, it is not that we are asking the 
Federal Government to write a check. The Federal Government can 
set the terms.
    But the vision should be something, I believe, that is 
constructed locally, because it is going to be that local 
implementation and enthusiasm. We are growth management 
accounting. Ninety-eight percent of all our growth goes into 
the cities. But the city of Seattle's central core, the city of 
Bellevue's central are growing substantially, they are the two 
fastest-growing areas of the entire county.
    So to us, being able to direct density it important, and to 
be able to have transportation systems that make living in a 
dense area efficient is critical. But also the ability to 
achieve our goals of 80 percent reductions and to reduce what 
we are really worried about now, which is the disparity issues 
and access to employment issues as well as what we call the 
significant ramifications on public health. We could marry all 
of those. But I would love to have our local vision and what we 
call the good handshake and buy-in from the Federal Government 
would be great.
    Mr. Oberstar. Well, and it is good to talk about silos in 
the Federal Government's transportation structure, but there 
are State silos as well.
    Mr. Sims. Oh, yes.
    Mr. Oberstar. There are loads of silos. There are divisions 
and divisiveness and overlapping jurisdictions and I will just 
cite from the Twin City metropolitan area. We have the 
metropolitan council that has a certain role to play. We have 
the city of Minneapolis, we have the city of St. Paul, we have 
the State department of transportation. When it came to 
developing our first, finally, light rail project, Hiawatha, 
there was big squabbling over who was going to get the funds, 
who would be the operating agency, who would issue the 
contracts, who would oversee the contracts.
    Do you have those issues resolved in Washington?
    Mr. Sims. No, Congressman. In King County, as a matter of 
fact, there is an effort right now by a group of people to 
actually create that governance authority, to finally marry the 
land use applications along with transportation governance. I 
think we've been able to work through it, through a series of 
agreements. And the agreements depend upon personalities. I 
think as long as we are in a cooperative mode, it works.
    But there isn't kind of the structural way of doing it. We 
have an excellent MPO that has laid out a vision that everybody 
has agreed to. Our issue now is how to fund that vision and 
whether they should be the group that receives the money to 
process it for the rest of the region. This group that has 
emerged and said, yes, why don't we merge the transportation 
funding authority with our local MPO and they will direct the 
funding on a regional basis.
    Mr. Oberstar. Since the development MPOs over 20 plus years 
ago, and their growth in skill, in professionalism and staffing 
and local resources, there has been an increasing demand to 
have a pass-through of Federal funds, bypass the State 
department of transportation, send the money directly. But yet 
we find divergent conditions all across the Country. Now, U.S. 
Department of Transportation is exploiting those conditions 
locally and driving a policy that is at odds with existing law, 
in fact, on the cost-effectiveness index for transit projects.
    Let me ask others to comment. Ms. Molitoris.
    Mr. Molitoris. Mr. Oberstar, it is very interesting that 
you raise this point, for two reasons. First of all, in 1910, 
the State of Ohio had an inter-urban system. It went 90 miles 
an hour and it went to every town of 5,000 or more. So talk 
about what is old is new. And the mayor of Columbus just 
announced a streetcar project to be ready for 2012 
bicentennial.
    Right here is Chester Jourdan. I mentioned him while you 
were out of the room, sir. He is the President of our Central 
Ohio MPO, MORPSI [phonetically]. And one of the things I 
brought up is, it is incumbent upon us to create the 
partnerships that work. That is what is occurring. We are going 
to have our 21st century transportation task force. Chester is 
a steering committee member. And on his own dime, Chester is 
creating a State-wide coalition of his peers to help us promote 
the resolutions and recommendations from that.
    To me, that is real partnership and I believe it will 
succeed every time.
    Mr. Oberstar. Mr. Kirby?
    Mr. Kirby. Congressman Oberstar, I think one of things we 
try to do is to create these coalitions. Because the reality of 
major projects is that there are a lot of different players who 
have to be participants. The local governments control the land 
use decisions. State DOT may control the highway decision. The 
regional transit agency controls the transit decision. There's 
also the citizens and interest groups who have an important 
role to play.
    But if the common interest and vision is there, which I 
think you have heard from a number of panelists today, these 
visions have been developed at the metropolitan area. You can 
build these coalitions and agreements. They are very 
customized, case by case, in each area. But if, as we have in 
the metropolitan planning program, formula funding with a set 
of requirements that we accomplish, but not money packaged in 
all kinds of different pots, we can work through those issues 
likely. If we had implementation money of that character, where 
we were given performance standards and goals, then we can work 
the details locally. And the planning program, we have a lot of 
flexibility on how to use our money. But we don't have the 
flexibility to ignore air quality conformity, or congestion or 
the safety issues that are in the planning regulations. We are 
monitored by the Federal Government, by our citizens. We have 
to address them. But the emphasis varies from one area to 
another. Baltimore is very focused on its port. We don't have a 
port in the Washington area. So they use their resources 
differently.
    I think it is a very good model that can be built upon.
    Mr. Yaro. Chairman Oberstar, I would like to first 
congratulate you on that opening statement. I hope that the 
final legislation next year reflects that progressive outlook. 
It is really what we need, I think, as a Nation.
    Mr. Oberstar. Believe me, it will.
    Mr. Yaro. We are confident that you will pull it off. The 
future of the Country, I think, rests in part on our ability to 
do that.
    One of the things that is happening, and I have been 
teaching regional planning, I have been a regional planner for 
40 years now, and I really do believe that regional planning 
and these metropolitan planning organizations are coming of age 
across the Country. But there are groups, and not all of them, 
but a number of them are really achieving a level of maturity, 
credibility, professionalism and so forth, political support, 
that I think bears investing in. I think there are ways that 
the Federal Government can incentivize the strengthening of 
those committees.
    In a former life, I worked with Mike Dukakis in 
Massachusetts, and we created the Cape Cod Commission. I 
remember when we started this thing, the chief elected 
officials for the advisory regional planning agency wouldn't 
show up at a meeting of the Cape Cod Commission, and you would 
get all three members of the planning board, lowest form of 
municipal life. And then Mike Dukakis said, we are going to put 
some teeth into this thing. And the decisions of the 
commissioner would be binding on municipalities.
    All of a sudden, 15 chief elected officials started showing 
up at meetings. They started taking this thing seriously. I 
think some modest incentives from the Federal Government can in 
fact incentivize that growth, that maturity and so forth.
    Then finally, I really do believe that the responsibility 
for coordinating the land use and development and the 
transportation investments has to happen at the metropolitan 
level. I think the kinds of partnerships that have been 
mentioned here today happen at that level, and they can also 
coordinate up to State governments where the State DOTs will 
always have responsibility for managing highway systems and so 
forth.
    So I think there is a way that this Committee, in the next 
bill, the next piece of legislation, can in fact promote the 
maturity and the success of these metropolitan planning 
efforts.
    Mr. Oberstar. Thank you. Mr. Puentes.
    Mr. Puentes. Thank you, Mr. Chairman. At the risk of being 
redundant, I would like to thank you both for your leadership 
and for your comments on the need for a better partnership 
between the Federal Government, the States and the metropolitan 
areas. I think a clear articulation of roles that recognizes 
the primacy of metropolitan areas, but also the differences in 
this broad Country are critically necessary. I think that would 
help get us to issues like environmental streamlining, which we 
talked about, project delivery, all these things would come out 
of a very clear articulation of what these roles are and a 
better partnership between the Federal Government, the metros 
and the States.
    And in that regard, I think there are clear areas where the 
Federal Government should lead, on interstates, intermodal 
freight, inter-metropolitan area passenger movement. But then 
there are some ares where we should kind of flip the pyramid 
and empower States and metropolitan areas to do many more 
things, that we should take the experiment that began in 1991 
and carry it much further. I think that only haltingly 
recognized the primacy of metros. It dealt them a very weak 
institutional hand in terms of the institutional MPOs, really 
didn't empower them to fulfill the vision that was laid out in 
1991.
    So to your point about pass-throughs, you could call it 
different things. But I think we do need to increase the amount 
of money that is sub-allocated to the metropolitan areas and to 
the MPOs. We need to give them more ability to make decisions 
based on these issues that are so critical to metropolitan 
areas.
    But it is not just about money for these places. There are 
certain areas where we need some kind of Federal guidance in 
terms of pricing, as we have heard here today. We need to level 
the modal playing field between highways and transit, so they 
are not operating on an un-level playing field with different 
requirements, different regulations for one mode and different 
regulations for another.
    Then this whole issue of sustainability grants to enable 
metropolitan areas to create this visions like we have seen in 
Washington and Seattle and Sacramento, all down the line here, 
they are critical areas that metropolitan areas need this kind 
of Federal support in order to do their own thing and to have 
these bottom-up visions.
    But all that money should be tied to something. There 
should be a purpose for the Federal program, and we need to 
optimize the, as it is, almost $300 billion program, and there 
probably will always be more at some point. So we need to 
commit to a real evidence-based program that is tied to 
performance measures and outcome orientation. I think looking 
at metropolitan areas as the lens to do that will enable us to 
achieve broad national visions.
    Thank you.
    Mr. Oberstar. Mr. Wiley?
    Mr. Wiley. Chairman Oberstar, thank you so much for your 
comments. They were right on target. And I have to share with 
the remaining Members of the Committee as well as the panel 
that we take very good care of Mr. Oberstar's son and daughter-
in-law and children in Sacramento. They use our system 
frequently. And we are very pleased to be helping to raise his 
grandchildren.
    [Laughter.]
    Mr. Oberstar. You are, indeed.
    Mr. Wiley. I think we have a model in Sacramento, and I 
have shared that earlier, that we can demonstrate to the 
remainder of the Country, frankly, in terms of how we have 
allocated the decision-making to our local MPO for the 
allocation of transportation dollars, both Federal flexible 
transportation dollars as well as State flexible transportation 
dollars. We have established criteria that are tied to smart 
planning, blueprint, smart growth principles that in order to 
receive those transportation dollars, you have to have projects 
that are completely consistent with that new, emerging vision.
    Also in California, we have modified the allocation of 
State funds, such that the real decision-making for State 
funding is occurring with the MPO and not at the State level. 
Our California transportation commission, which is responsible 
for State-wide transportation planning, must accept entirely 
our local transportation improvement program or reject it 
entirely. They cannot pick out or cherry-pick individual 
projects. They must accept or reject the entire program. Our 
program must be completely consistent with our metropolitan 
transportation plan in order for it to go forward.
    So I think what we have done is we have tied all those 
together, including smart growth land use planning with 
transit, and prioritized the allocation of those dollars to 
those projects to support that vision.
    Mr. Oberstar. Thank you very much, Mr. Wiley, and thanks to 
each of the panelists and to our colleagues for their 
forbearance on going a little longer on this matter.
    California is, I think, the only State in its 
transportation commission that combines housing, land use in 
the overall agency. And that is a good model for the rest of 
the Country. Mr. Chairman, I think we are writing right here a 
chapter for the next transportation bill. And it is one that 
needs to be refined. This issue of the MPO, the relationship to 
local, other local government units, to the State department of 
transportation and the role of both Federal Highway 
Administration, Federal Transit Administration, this critical 
thrust, to shape a grant revision.
    As you think through how that should be structured, that 
relationship should be structured in the next legislation, 
include also non-motorized transportation. Include also rails 
to trails and scenic byways, which each of you do in sub-
allocations. Make that a major part of your overall thinking. 
We want to do this right. And I think as Mr. Puentes said, we 
have gotten away from the I of ISTEA, the intermodalism of 
ISTEA. That is coming back in the next transportation bill. 
That is going to be a centerpiece. And under Mr. DeFazio's 
leadership, the hearings we have been holding, he has been 
hearing and Mr. Duncan as well, we are shaping the future of 
transportation.
    Thank you very much. Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Brown?
    Mr. Brown of South Carolina. I was just going to say, it 
seems like to me we found that person with a vision. I thank 
you all for helping me identify him.
    Mr. DeFazio. I just have one quick last question, we don't 
need to go through another entire round. Mr. Yaro, you touched 
in your testimony on the failure of the cordon pricing for New 
York. I guess my question would be, I am somewhat familiar with 
the plan they had proposed. And it has tremendous merit, far 
beyond this particular aspect of it. Is it your understanding, 
the same as mine, that basically since this Administration 
really doesn't care about congestion, but what they really care 
about is pushing a neo-conservative principle, that New York is 
going to be deprived of any funds because of the failure to 
adopt the cordon pricing? Is that correct, under this program?
    Mr. Yaro. That is my understanding, yes. I would say this 
also, that at least at RPA, we have been at this for about 15 
years, promoting a congestion pricing system in New York. We 
think there is a place for it. It has nothing to do with a neo-
con agenda or anything else, it is just that we think we have a 
problem of congestion, we need to manage it. We have a problem 
of financing our transit system and expanding it, and there is 
a connection between the two.
    Mr. DeFazio. But you have been working on a local solution 
and not blackmail. What I am pointing to is your plan includes 
far more than congestion pricing, yes, congestion pricing was 
in favor of some elements of the plan. But the point is, if 
they were truly concerned with congestion pricing, I think they 
would say, oh, gee, well, New York being the largest urban area 
and most congested, or second most congested, I don't know if 
you are first or second in terms of congestion.
    Mr. Yaro. I think our friends from L.A. get the blue ribbon 
on this one.
    Yes, it turned out that it wasn't a sufficiently large 
incentive to get the legislative action that we were hoping 
for. We will be back, this is not going away. There will be a 
renewed attempt to manage congestion in New York and to finance 
our transit system. I think what everyone does understand and 
what came out of this debate is just how important those 
investments are to the future of New York and I would argue to 
the future of the Country.
    Mr. DeFazio. Thank you.
    I thank all of the participants for your fine testimony. It 
definitely will help us with building blocks as we move toward 
reauthorization.
    With that, the Committee is now adjourned.
    [Whereupon, at 12:35 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T1822.007
    
    [GRAPHIC] [TIFF OMITTED] T1822.008
    
    [GRAPHIC] [TIFF OMITTED] T1822.009
    
    [GRAPHIC] [TIFF OMITTED] T1822.010
    
    [GRAPHIC] [TIFF OMITTED] T1822.011
    
    [GRAPHIC] [TIFF OMITTED] T1822.012
    
    [GRAPHIC] [TIFF OMITTED] T1822.013
    
    [GRAPHIC] [TIFF OMITTED] T1822.014
    
    [GRAPHIC] [TIFF OMITTED] T1822.015
    
    [GRAPHIC] [TIFF OMITTED] T1822.016
    
    [GRAPHIC] [TIFF OMITTED] T1822.017
    
    [GRAPHIC] [TIFF OMITTED] T1822.018
    
    [GRAPHIC] [TIFF OMITTED] T1822.019
    
    [GRAPHIC] [TIFF OMITTED] T1822.020
    
    [GRAPHIC] [TIFF OMITTED] T1822.021
    
    [GRAPHIC] [TIFF OMITTED] T1822.022
    
    [GRAPHIC] [TIFF OMITTED] T1822.023
    
    [GRAPHIC] [TIFF OMITTED] T1822.024
    
    [GRAPHIC] [TIFF OMITTED] T1822.025
    
    [GRAPHIC] [TIFF OMITTED] T1822.026
    
    [GRAPHIC] [TIFF OMITTED] T1822.027
    
    [GRAPHIC] [TIFF OMITTED] T1822.028
    
    [GRAPHIC] [TIFF OMITTED] T1822.029
    
    [GRAPHIC] [TIFF OMITTED] T1822.030
    
    [GRAPHIC] [TIFF OMITTED] T1822.031
    
    [GRAPHIC] [TIFF OMITTED] T1822.032
    
    [GRAPHIC] [TIFF OMITTED] T1822.033
    
    [GRAPHIC] [TIFF OMITTED] T1822.034
    
    [GRAPHIC] [TIFF OMITTED] T1822.035
    
    [GRAPHIC] [TIFF OMITTED] T1822.036
    
    [GRAPHIC] [TIFF OMITTED] T1822.037
    
    [GRAPHIC] [TIFF OMITTED] T1822.038
    
    [GRAPHIC] [TIFF OMITTED] T1822.039
    
    [GRAPHIC] [TIFF OMITTED] T1822.040
    
    [GRAPHIC] [TIFF OMITTED] T1822.041
    
    [GRAPHIC] [TIFF OMITTED] T1822.042
    
    [GRAPHIC] [TIFF OMITTED] T1822.043
    
    [GRAPHIC] [TIFF OMITTED] T1822.044
    
    [GRAPHIC] [TIFF OMITTED] T1822.045
    
    [GRAPHIC] [TIFF OMITTED] T1822.046
    
    [GRAPHIC] [TIFF OMITTED] T1822.047
    
    [GRAPHIC] [TIFF OMITTED] T1822.048
    
    [GRAPHIC] [TIFF OMITTED] T1822.049
    
    [GRAPHIC] [TIFF OMITTED] T1822.050
    
    [GRAPHIC] [TIFF OMITTED] T1822.051
    
    [GRAPHIC] [TIFF OMITTED] T1822.052
    
    [GRAPHIC] [TIFF OMITTED] T1822.053
    
    [GRAPHIC] [TIFF OMITTED] T1822.054
    
    [GRAPHIC] [TIFF OMITTED] T1822.055
    
    [GRAPHIC] [TIFF OMITTED] T1822.056
    
    [GRAPHIC] [TIFF OMITTED] T1822.057
    
    [GRAPHIC] [TIFF OMITTED] T1822.058
    
    [GRAPHIC] [TIFF OMITTED] T1822.059
    
    [GRAPHIC] [TIFF OMITTED] T1822.060
    
    [GRAPHIC] [TIFF OMITTED] T1822.061
    
    [GRAPHIC] [TIFF OMITTED] T1822.062
    
    [GRAPHIC] [TIFF OMITTED] T1822.063
    
    [GRAPHIC] [TIFF OMITTED] T1822.064
    
    [GRAPHIC] [TIFF OMITTED] T1822.065
    
    [GRAPHIC] [TIFF OMITTED] T1822.066
    
    [GRAPHIC] [TIFF OMITTED] T1822.067
    
    [GRAPHIC] [TIFF OMITTED] T1822.068
    
    [GRAPHIC] [TIFF OMITTED] T1822.069
    
    [GRAPHIC] [TIFF OMITTED] T1822.070
    
    [GRAPHIC] [TIFF OMITTED] T1822.071
    
    [GRAPHIC] [TIFF OMITTED] T1822.072
    
    [GRAPHIC] [TIFF OMITTED] T1822.073
    
    [GRAPHIC] [TIFF OMITTED] T1822.074
    
    [GRAPHIC] [TIFF OMITTED] T1822.075
    
    [GRAPHIC] [TIFF OMITTED] T1822.076
    
    [GRAPHIC] [TIFF OMITTED] T1822.077
    
    [GRAPHIC] [TIFF OMITTED] T1822.078
    
    [GRAPHIC] [TIFF OMITTED] T1822.079
    
    [GRAPHIC] [TIFF OMITTED] T1822.080
    
    [GRAPHIC] [TIFF OMITTED] T1822.081
    
    [GRAPHIC] [TIFF OMITTED] T1822.082
    
    [GRAPHIC] [TIFF OMITTED] T1822.083
    
    [GRAPHIC] [TIFF OMITTED] T1822.084
    
    [GRAPHIC] [TIFF OMITTED] T1822.085
    
    [GRAPHIC] [TIFF OMITTED] T1822.086
    
    [GRAPHIC] [TIFF OMITTED] T1822.087
    
    [GRAPHIC] [TIFF OMITTED] T1822.088
    
    [GRAPHIC] [TIFF OMITTED] T1822.089
    
    [GRAPHIC] [TIFF OMITTED] T1822.090
    
    [GRAPHIC] [TIFF OMITTED] T1822.091
    
    [GRAPHIC] [TIFF OMITTED] T1822.092
    
    [GRAPHIC] [TIFF OMITTED] T1822.093
    
                                    

</pre></body></html>
